<html>
<title> - BORDER SECURITY OVERSIGHT: IDENTIFYING AND RESPONDING TO CURRENT THREATS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   BORDER SECURITY OVERSIGHT: IDENTIFYING AND RESPONDING TO CURRENT 
                                THREATS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2013

                               __________

                           Serial No. 113-53

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-596 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2013....................................     1

                               WITNESSES

Mr. Michael Fisher, Chief, U.S. Border Patrol, Customs and Border 
  Protection
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. David J. Murphy, Assisting Acting Commissioner, Customs and 
  Border Protection, Office of Field Operations
    Oral Statement...............................................    16
Mr. Thomas Homan, Executive Associate Director, Enforcement and 
  Removal Operations, USICE
    Oral Statement...............................................    17
    Written Statement............................................    20
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  U.S. Government Accountablity Office
    Oral Statement...............................................    28
    Written Statement............................................    30

                                APPENDIX

The Hon. Jason Chaffetz, a Member of Congress from the State of 
  Utah, Opening Statement........................................    90
Hearing Question from Member Duncan..............................    93

 
   BORDER SECURITY OVERSIGHT: IDENTIFYING AND RESPONDING TO CURRENT 
                                THREATS

                              ----------                              


                        Thursday, June 27, 2013

                   House of Representatives
       Subcommittee on National Security, Homeland 
                    Defense, and Foreign Operations
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:05 a.m. in 
room 2247, Rayburn House Office Building, the Honorable Jason 
Chaffetz [chairman of the subcommittee], presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Gosar, 
Gowdy, Lummis, Woodall, Bentivolio, Tierney, Maloney, Kelly and 
Grisham.
    Staff Present: Ali Ahmad, Communications Advisor; Daniel 
Bucheli, Majority Assistant Clerk; Sharon Casey, Majority 
Senior Assistant Clerk; Mitchell S. Kominsky, Majority Counsel; 
Mark D. Marin, Majority Director of Oversight; Devon Hill, 
Minority Research Assistant; Peter Kenny, Minority Counsel; and 
Chris Knauer, Minority Investigator.
    Mr. Chaffetz. The committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee Mission Statement.
    We exist to secure two fundamental principles. First, 
Americans have the right to know that the money Washington 
takes from them is well spent. Second, Americans deserve an 
efficient and effective government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they are getting from the government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy.
    Good morning and I thank everyone for coming to attend this 
hearing which is entitled Border Security Oversight: 
Identifying and Responding to Current Threats.
    I would also like to thank my colleagues who are here and 
the people in the audience for joining us today.
    Much of the current immigration reform debate has centered 
on the importance of border security but the conversation has 
not focused enough on how to secure the border in the most 
effective manner.
    As a result, today's hearing will examine a variety of 
threats to the U.S. border security from illegal entrance to 
drug trafficking organizations to potential national security 
breaches. This hearing will also examine how to measure each of 
these risks and the most effective responses to the threats we 
confront.
    The Department of Homeland Security is responsible for 
controlling and guarding the borders of the United States. The 
Department's operational responsibilities include ``preventing 
and investigating illegal movement across our borders, 
including the smuggling of people, drugs, cash and weapons.''
    The Secure Fence Act of 2006, which intended ``to establish 
operational control over the international land and maritime 
borders of the United States,'' authorizes the Secretary of the 
Department of Homeland Security to take necessary and 
appropriate actions to secure the U.S. borders.
    From 2006 to 2012 the security measures implemented to help 
achieve operational control of U.S. borders have cost U.S. 
taxpayers approximately $75 billion. Despite spending tens of 
billions of taxpayer dollars to secure the borders, the 
Government Accountability Office reported in 2011 that there 
were only 129 miles of the 1,954 mile long southwest border, 
roughly six percent of the border, where border patrols can 
actually ``deter or detect and apprehend illegal entry'' at the 
border itself--six percent operational control.
    The lack of operational control documented by GAO directly 
contradicts statements made by the Administration that the 
border is the most secure that it has ever been. After GAO 
reported low levels of operational control, DHS changed its 
policy to make the number of ``apprehensions'' the measure of 
effectiveness.
    However, the number of apprehensions which DHS uses as its 
metric now does not indicate whether Federal Government efforts 
to secure the border are actually achieving operational control 
or not.
    One of the fundamental questions I have is if the rise in 
apprehensions is increasing, does that mean the border is more 
secure or does that mean the border is less secure? If the 
number of apprehensions is declining, does that mean the border 
is less secure or does that mean the border is more secure?
    I asked the Attorney General this question. Attorney 
General Holder said, you cannot draw a conclusion based solely 
on apprehensions. I asked the Secretary of Homeland Security, 
who didn't really give a thorough answer to that question. It 
is something we need to explore, not to play gotcha but to try 
to come up with a metric that we can all live with. When those 
metrics change, you cannot compare them to past performance. 
That is something we need to explore.
    Since the creation of the Department of Homeland Security, 
the committee's oversight efforts have examined the effective 
use of taxpayer dollars at the border. While the Department is 
working hard to secure the border, there are examples of 
wasteful spending. For instance, SBInet, which was intended to 
improve video surveillance of the border, has cost taxpayers 
roughly $1.2 billion, but SBInet has been deemed a failure.
    From April 2 to 4 of this year, members and staff of the 
House Oversight and Government Reform Committee, including 
myself, traveled to Yuma, Paco and Nogales, Arizona, to assess 
the Federal Government's most recent efforts to secure the 
border. I appreciate the men and women who we interacted with 
there. We had a very productive trip.
    The committee also visited the Eloy Detention Facility in 
Arizona and was briefed by prison and ICE officials. The 
committee learned that individuals classified as OTMs and how 
the Department classifies people. OTM stands for Other Than 
Mexican and accounted for roughly 900 inmates from 60 different 
countries out of approximately 1,500 in the Eloy Detention 
Facility. In other words more than half of the people in the 
detention facility were not Mexicans, but were from 60 
different countries.
    For those that assume that the border problem is simply a 
problem with Mexico, that is just not true. There is nothing 
statistical that would support that and certainly, if you look 
at the detentions, it is a much bigger and broader problem than 
just people coming north from Mexico. It is a bigger and 
broader problem.
    Based on our conversations with CBP officers in Yuma, and 
Nogales and other cities, there appears to be an increasing 
trend of OTMs moving across the southwest border. A significant 
portion of OTMs are coming from Latin America, including 
Guatemala and Honduras, in addition to India and China, other 
parts in Europe, Asia and other countries.
    Border patrol officers on the ground also told the 
committee about potential problems to our immigration system. 
For instance, it appears the judicial process or asylum 
requests and the government's issuance and administration of B1 
and B2 visas may contain some very serious flaws.
    During our trip to the border, we also found that the 
government continues to identify new and emerging threats to 
secure the border, including the drug cartels' use of semi-
submersible vessels, ultra light aircraft and the construction 
of underground tunnels. Even right in the heart of Nogales, 
they still recently found another tunnel going right into the 
heart of the city.
    Today, we hope not only to discuss these threats but also 
responses to some of these risks, including the use of 
effective drones, strategic placement of troops and other 
technology which can be successfully implemented along the 
border. Whether through technology or border patrol agents, we 
must allocate the necessary resources to secure the border but 
in a way that is smart, strategic and ensures that we do not 
waste taxpayer dollars.
    I want to emphasize and I commend the work and support of 
our law enforcement officers from the various different 
agencies who do amazing work in exceptionally difficult 
conditions. We cannot thank them enough for their good, hard 
and diligent work. It is tough, tough work.
    Today's discussion should focus on understanding the 
threats to our borders and how we should respond to each of the 
challenges. I look forward to hearing from our witnesses for a 
productive conversation about securing the borders of the 
United States.
    However, I am disappointed that Joseph Langlois, the 
Associate Director for Refugee, Asylum and International 
Operations with the U.S. Citizenship and Immigration Services, 
has refused to testify before this subcommittee today. The 
committee requested his attendance and participation in the 
hearing 13 days ago on June 14, 2013.
    Despite providing essentially a two-week notice to testify 
before the subcommittee, U.S. Citizenship and Immigration 
Services has declined to appear asserting ``Due to the lack of 
sufficient notice to prepare and clear testimony as well as to 
prepare a suitable witness, USCIS will be unable to appear at 
the upcoming June 27th hearing on border security.''
    I want to thank the four other people from the other 
agencies who were able to prepare, who did come and were 
briefed, and who are joining us today. I find it totally 
unacceptable that with 13 days notice, that is not sufficient 
time to prepare to testify in Congress about what you do every 
day and the job and responsibility that you have for your own 
department and agency.
    I thank those who are here. We duly note the person who is 
not here and find that unacceptable. The American taxpayers 
deserve answers to the important questions before the 
subcommittee today. We have left the seat open hoping that the 
witness would appear today but it appears as if he will not.
    Again, thank you to the agencies that are here today. I 
also want to thank and commend my colleague, Trey Gowdy, for 
his work. He is the chairman of the subcommittee that is 
dealing with immigration.
    As we move forward in dealing with the problem that is 
immigration, from a legislative standpoint, it is critical that 
we get the border security portion right. Every bit of 
legislation, whether in the Senate or the House, has always 
focused on how are we going to secure the border, how do we 
assure the American people that the border is secure?
    There has been legislation that was passed in 2006 that 
supposedly dealt with securing the border and the fence, yet we 
have only 6 percent operational control. Earlier, we passed 
legislation that would ensure a viable entry/exit system. We 
have none. That is a problem and we need to discuss that today.
    I look forward to Congress tackling immigration reform. It 
is much needed. We need to understand what is happening at the 
border and we appreciate those who are here today.
    Mr. Chaffetz. Does anyone have an opening statement they 
would like to make? Members may have seven days to submit 
opening statements for the record.
    We will now recognize our first panel: Mr. Michael Fisher, 
Chief, U.S. Border Patrol; Mr. David J. Murphy, Assisting 
Acting Commissioner, Customs and Border Protection, Office of 
Field Operations; Mr. Thomas Homan, Executive Associate 
Director, Enforcement and Removal Operations, ICE; and Ms. 
Rebecca Gambler, Director, Homeland Security and Justice, U.S. 
Government Accountability Office. Again, we thank you all for 
being here today.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated.
    In order to allow time for discussion, please limit your 
testimony, if you would, to five minutes. Your entire written 
statement will be a part of the record. We will give you some 
latitude, but again, I want to thank you for being here and 
will recognize Mr. Fisher.

                       WITNESS STATEMENTS

                  STATEMENT OF MICHAEL FISHER

    Mr. Fisher. Chairman Chaffetz, Ranking Member Tierney and 
other distinguished members of the subcommittee, it is indeed 
an honor and a privilege to be before you today to discuss the 
identification and response to current threats.
    As CBP prepares for our 2014 operations, the U.S. Border 
Patrol continues to be guided by the three pillars of our 
strategy: information, integration and rapid response. Current 
intelligence estimates suggest that transnational criminal 
organizations and the networks that support them continue to 
exploit the border in Arizona and south Texas.
    For the first time in over a decade, illegal cross-border 
activity is more prevalent in south Texas than any other 
corridor along the southwest border. Today, activity in south 
Texas accounts for approximately 34 percent of all arrests 
along the southwest border.
    It is also noteworthy to recognize, as the Chairman pointed 
out, that 60 percent of these arrests are of nationals from 
some other country than Mexico. In particular, the top three 
sending countries are Guatemala, Honduras and El Salvador. 
However, the current activity in south Texas needs to be put in 
proper context. Even with elevated activity in Rio Grande 
Valley, the daily apprehension rate is approximately 40 percent 
less than it was in 1997.
    We continue to mature our integrated operations in each 
corridor with our federal, State, local and tribal partners. 
Protecting the citizens against those who would do us harm does 
not begin or end at the border. We cannot achieve border 
security alone.
    As the incremental transition of activity shifted to south 
Texas, we took the following actions. We directed most Border 
Patrol Academy classes and those agents to south Texas, 
increasing the overall agent boots on the ground in high risk 
areas such as Rio Grande Valley. We redeployed approximately 
100 pieces of technology to south Texas from other southwest 
border sectors. These were equipment such as unattended ground 
sensors, global surveillance systems and thermal imaging 
systems.
    As you may recall, we entered into a Memorandum of 
Understanding with the Department of Defense to allow the 
transfer of detection and monitoring equipment from the 
military to CBP. With the draw-down of forces in theater, we 
sought to capitalize on the opportunity to reuse equipment the 
taxpayers already paid for to assist front line agents.
    Accordingly, we recently delivered the first installment of 
this equipment to the field with 224 detection and monitoring 
systems that have been inventoried and sent to the southwest 
border, 75 percent of which went to south Texas.
    In March 2013, we initiated vulnerability assessment 
flights along the southwest border utilizing CBP's Predator 
Beast equipped with synthetic aperture radar for broader 
situational awareness. To date, we have developed more than 80 
target folders covering approximately 320 non-contiguous miles. 
In support of this effort, we continue to leverage geospatial 
intelligence collection to augment our own organic 
capabilities.
    In conclusion, my team has designed and implemented a 
formidable strategy and we continue to learn and adjust our 
tactics, techniques and procedures as conditions on the ground 
dictate. I stand by my convictions that given the operational 
flexibility to match capability to threat, we will reduce the 
likelihood of attack against the Nation and continue to provide 
the requisite safety and security to the citizens who deserve 
no less.
    Mr. Chairman, again, thank you for the opportunity to 
testify today. I look forward to answering your questions.
    [Prepared statement of Mr. Fisher follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chaffetz. Thank you, Mr. Fisher.
    I will now recognize Mr. Murphy for five minutes.

                  STATEMENT OF DAVID J. MURPHY

    Mr. Murphy. Good morning, Chairman Chaffetz, Vice Chairman 
Lummis and distinguished members of the subcommittee.
    Thank you for the opportunity to appear before you today. I 
appreciate the committee's leadership and commitment to 
ensuring the security of the American people and look forward 
to discussing the progress we have made in securing the border. 
We define a secure border at our Nation's ports of entry as a 
well managed border when mission risks are effectively 
identified and addressed and legitimate trade and travel are 
expedited.
    Every day we carry out our mission to protect the people 
and the economy of the United States by preventing dangerous 
people and goods from entering the Country while expediting 
legitimate trade and travel that is the life blood of our 
economy at 329 ports of entry.
    Traffic at our ports of entry differs by environment type, 
which encompasses air, land and sea, traveler or cargo and mode 
of transportation, commercial or general aviation, personally-
owned vehicles, pedestrians, trucks, containerized, packaged or 
bulk. Each of these environments and activity presents a 
different set of challenges with respect to threats, volume and 
timing of processing.
    Last year, CBP welcomed more than 350 million passengers 
and processed $2.3 trillion in total trade value. We are seeing 
volume increases in all environments and anticipate volume to 
continue as the economy recovers. One of the most substantial 
growths is in the air environment where we have seen a volume 
increase of 12 percent since 2009.
    It is important to note that the vast majority of this 
traffic complies with all rules and regulations enforced by 
CBP. Our goal is to identify and interdict those few travelers 
and shipments that may present a risk while facilitating the 
vast majority of legitimate traffic. We are working to find and 
stop the proverbial needles in the haystack while the haystack 
is moving.
    We continue to improve our ability to do this and to focus 
our finite resources on those people and goods that present the 
highest potential risk. In addition to refining our risk base 
and layered approach to security, we have worked to extend our 
borders outward and to interdict threats before they reach the 
United States.
    DHS, in cooperation with our interagency and Port partners, 
now screens people and goods earlier in the process, before 
boarding passengers or loading cargo onto planes or vessels 
destined for the United States. Since 2009, CBP has expanded 
its pre-departure screening efforts and now checks all air 
travelers against government databases on all flights arriving 
to and departing from the United States prior to boarding.
    CBP has also extended our Nation's borders outward in the 
cargo environment. All inbound cargo manifests are screened 
before they are laden on the vessels with almost 85 percent of 
high risk shipments examined or addressed before arrival at 
U.S. seaports.
    In addition to improving our ability to identify and 
mitigate potentially high risk travel and trade, CBP remains 
focused on identifying waste to facilitate the growing volume 
of people and goods entering the United States. We have seen 
marked facilitation improvements in the development of a series 
of transformation initiatives that increase the speed of our 
processing, including the expansion of the Trusted Traveler and 
Trusted Trader programs, the elimination of paper forms and the 
increased use of technology.
    We will continue to aggressively pursue these strategies 
which both increase security and streamline the border process 
for people and goods.
    These types of programs and enhanced management tools have 
not only increased our ability to facilitate lawful travelers, 
but have also provided significant security benefits. For 
example, we have limited the number of accepted travel 
documents and increased our ability to identify at our land 
ports resulting in a decreased use of fraudulent documents and 
attempts by inadmissible persons to enter through our ports.
    As we refine our targeting and interdiction efforts along 
the southwest border, transnational criminal organizations have 
begun to use unique and non-traditional deep concealment 
smuggling methods using smaller loads to avoid detection. Ever 
improving interdiction efforts by CBP continue to force these 
organizations to attempt a myriad of more costly and often less 
successful smuggling techniques.
    In 2009 and 2010, we focused our agricultural protection 
efforts on increasing interception of our highest agricultural 
risk pests, Asian Gypsy Moths and Caper Beetles. These pests, 
if left undetected, could result in millions of dollars in 
economic damage. In the year following this nationwide 
training, we saw record levels of interceptions and continue to 
maintain those levels of interceptions today.
    The state of border security continues to improve at our 
ports of entry. We have made tremendous progress and are well 
postured against terrorist threats having pushed our security 
measures beyond our immediate borders. We are pushing a robust 
strategy to optimize our current business practices. In short, 
we have maintained and increased our mission effectiveness 
while facing increasing demands for growing passenger and trade 
volume and continue to seek ways to improve.
    Chairman Chaffetz, Ranking Member Tierney, Vice Chairman 
Lummis and members of the subcommittee, thank you for the 
opportunity to testify. I look forward to your questions.
    Mr. Chaffetz. Thank you, Mr. Murphy.
    I will now recognize Mr. Homan for five minutes.

                   STATEMENT OF THOMAS HOMAN

    Mr. Homan. Good morning, Chairman Chaffetz, Ranking Member 
Tierney and distinguished members of the subcommittee.
    On behalf of Secretary Napolitano and Director Morton, 
thank you for the opportunity to appear today to discuss the 
significant progress ICE and DHS have made to secure our 
border.
    As you may know, ICE is the principal investigative agency 
within DHS and the second largest in the Federal Government. 
The men and women of ICE play a critical role in securing the 
border and carrying out smart and effective immigration 
enforcement policies.
    ICE consists of three operational programs: Enforcement and 
Removal Operations, ERO; Homeland Security Investigations, HSI; 
and the Office of the Principal Legal Advisor, OPLA. HSI 
investigates a wide range of crimes that arise from illegal 
movement of people and goods into, within and out of the United 
States.
    I am head of ERO. In this role, I lead a program that 
identifies, apprehends, detains and removes alien subjects for 
removal from the United States pursuant to ICE's prioritized 
enforcement principles. I have been a federal law enforcement 
officer for 29 years, 27 of which have been spent in 
immigration enforcement.
    Over the years, I have seen and worked the entire life 
cycle of immigration enforcement. I have served on the front 
lines as a border patrol agent; I tackled smuggling 
organizations as a special agent with the former INS, and now 
focus on smart enforcement at the back end of the process that 
being removal of aliens from the United States.
    Over the past four years, ICE has focused its resources on 
removal of individuals who fit within our enforcement 
priorities. Those priorities include people who are threats to 
national security and public safety such as convicted 
criminals, recent illegal border crossers and those who 
obstruct immigration controls.
    This focus has led to unprecedented successes. Last year, 
ICE removed almost 410,000 aliens, some 55 percent of them had 
criminal convictions. This is almost double the number of 
criminal alien removals in 2008 and 96 percent of those aliens 
fit within the priority categories I mentioned above. Simply 
put, our reforms and priorities have made our communities 
safer.
    ICE carefully manages its detention population in our field 
offices on the border and nationwide. Operational needs on the 
southwest border can change quickly. ICE has a policy and 
infrastructure in place to meet those needs.
    The successes I mention today could not have been achieved 
without implementation of the smart, effective and efficient 
policies issued by Secretary Napolitano and Director Morton. Of 
course we must work closely with our DHS partners in order to 
meet our goals. For instance, 44 percent of ICE's detainees in 
ICE custody came from the CBP.
    Our joint efforts are critical to the Nation's border 
enforcement efforts and I am proud of the working relationship 
I have with my colleagues with whom I am testifying today.
    Another part of our commitment to smart and effective 
immigration enforcement are the major reforms we have made to 
the detention system. All of our reforms help ensure that 
individuals in ICE's detained population are held appropriately 
and are classified according to their risk. We have put in 
place strong safeguards against abuse to ensure our detainees 
have access to health care and legal resources.
    The success I have outlined today is the result of 
reasonable immigration policies and priorities. Even in this 
time of budget uncertainty, we are using our resources in a 
smart, effective and responsible manner. We are making the 
public safer by targeting our resources where they are needed 
most.
    Thank you again for inviting me to testify. I am pleased to 
answer any questions you may have.
    [Prepared statement of Mr. Homan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chaffetz. Thank you, Mr. Homan.
    We now look forward to hearing from Ms. Gambler for five 
minutes.

                  STATEMENT OF REBECCA GAMBLER

    Ms. Gambler. Good morning, Chairman Chaffetz and members of 
the subcommittee.
    I appreciate the opportunity to testify at today's hearing 
to discuss GAO's work on DHS programs and efforts to secure the 
border.
    Since 2004, DHS has increased resources allocated to 
securing borders. For example, in fiscal year 2004, the Border 
Patrol had over 10,000 agents; in fiscal year 2011, there were 
over 21,000 agents. Similarly, the number of Customs and Border 
Protection Officers stationed at ports of entry has increased 
from over 17,000 in fiscal year 2004 to more than 20,000 in 
fiscal year 2011. DHS has deployed technology and 
infrastructure to border areas.
    Today, I will focus my remarks on three key areas in which 
GAO has assessed DHS' efforts to secure our Nation's borders. 
First, I will highlight our work reviewing GAO's efforts to 
assess its border security activities. Second, I will discuss 
GAO's work reviewing interagency coordination efforts. Third, I 
will highlight GAO's work on DHS management of technology 
assets for securing the border.
    With regard to my first point, Border Patrol data show that 
from fiscal year 2006 to 2011, apprehensions within each 
southwest border sector declined. Border Patrol attributed this 
decrease to various factors such as changes in the U.S. economy 
and increases in resources. Fiscal year 2012 data reported by 
the Border Patrol indicate that apprehensions across the 
southwest border increased from fiscal year 2011 but it is too 
early to assess whether this increase indicates a change in 
trend. Further, from fiscal year 2006 through 2011, estimated 
known illegal entries in each southwest border sector also 
declined.
    In addition to data on apprehensions, other data collected 
by the Border Patrol are used by sector management to inform 
assessments of its efforts. These data include, among other 
things, the percentage of estimated known illegal entrants who 
were apprehended more than once, which is referred to as the 
recidivism rate, and contraband seizures.
    With regard to the recidivism rate, our analysis of Border 
Patrol data showed that the rate decreased across southwest 
border sectors between fiscal years 2008 and 2011. With regard 
to drug and other contraband seizures, the number of seizures 
increased by 83 percent from fiscal year 2006 to 2011.
    Since fiscal year 2011, DHS has used a number of 
apprehensions on the southwest border between ports of entry as 
an interim performance goal and measure for border security. 
This measure provides some useful information but does not 
position the department to be able to report on how effective 
its efforts are at securing the border resulting in reduced 
oversight and DHS accountability.
    The Border Patrol is in the process of developing goals and 
measures. However, it has not set target time frames for 
completing its efforts. We recommended that the Border Patrol 
establish such time frames to help ensure that development of 
goals and measures are completed in a timely manner. The 
Department agreed with our recommendations and stated that it 
plans to establish such time frames by November 2013.
    With regard to my second point, DHS and other agencies have 
reported improvements in interagency coordination of border 
enforcement operations. For example, several partners 
responsible for securing federal lands along the borders have 
cited increased information sharing and communication.
    However, our work has also identified opportunities for 
improvements in more consistent implementation of existing 
interagency agreements and stronger oversight of interagency 
forums for border security.
    Finally, DHS has deployed technology infrastructure and 
other assets to U.S. borders. However, DHS has faced a number 
of challenges in effectively planning for and managing its 
technology programs and other assets. For example, our work has 
shown that DHS could better document the analysis it has used 
to determine the types, quantities and locations of 
technologies it plans to deploy to the southwest border under 
its new technology plan.
    Further, CBP has not yet defined performance metrics for 
assessing implementation of its new technology plans, hindering 
CBP's efforts to assess the effectiveness of the plan going 
forward.
    In closing, our work has identified opportunities for DHS 
to strengthen its border security programs and efforts. We have 
made a number of recommendations to the Department to address 
various challenges and to enhance management of border security 
related programs. DHS has generally concurred with our 
recommendations and is taking action to address them. We will 
continue to monitor DHS' efforts in these efforts.
    This concludes my prepared statement and I would be pleased 
to answer any questions members may have.
    [Prepared statement of Ms. Gambler follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chaffetz. Thank you.
    I will now recognize myself for five minutes.
    Ms. Gambler, is it fair to say there are no metrics to 
determine how secure or insecure the border is currently?
    Ms. Gambler. Currently, the Department is using the number 
of apprehensions on the southwest border between ports of entry 
as its goal and measure for border security.
    Mr. Chaffetz. That is an incomplete metric, would you 
agree?
    Ms. Gambler. That measure does not position the Border 
Patrol and DHS to be able to assess the effectiveness of its 
efforts because it doesn't compare apprehensions to estimated 
entrants.
    Mr. Chaffetz. Thank you.
    Mr. Murphy, my understanding is we have no entry/exit 
system, particularly at the land-based ports, to gauge who is 
coming and who is going out, correct?
    Mr. Murphy. No, sir, I wouldn't say that is completely 
correct. I think we have made some significant improvements in 
sophistication and entrants. Obviously that has been the focus. 
As far as the exits, we are working on that. That is a 
significant issue. We are well aware of it.
    Mr. Chaffetz. Do you have any statistics to show how many 
people actually leave the Country?
    Mr. Murphy. No, sir.
    Mr. Chaffetz. My understanding is the majority of visas 
this Country offers are called B1 and B2 entry/exits. I sat and 
watched this. Thousands of people in Nogales and Yuma streamed 
into the Country. In fiscal year 2011, my understanding is we 
approved, through the State Department, 4.3 million of these 
cards where people are supposed to be in the Country 
temporarily, right?
    Mr. Murphy. Yes, sir.
    Mr. Chaffetz. How many people came into the Country using a 
B1, B2 entry/exit card?
    Mr. Murphy. I don't have that number but I can get that.
    Mr. Chaffetz. Is this something the agency has?
    Mr. Murphy. Oh, yes, we track what comes in. It is what is 
going out that right now we need to get a better handle on.
    Mr. Chaffetz. When you say better handle, do you track any 
of them going out?
    Mr. Murphy. Right now, our outbound operations are 
basically geared towards intelligence and pulse and surge 
operations.
    Mr. Chaffetz. That is not what I asked you.
    Mr. Murphy. I know, sir. No, we don't.
    Mr. Chaffetz. We are letting millions of people, almost a 
million a day, into the Country. We have no idea how many are 
going out, is that fair to say?
    Mr. Murphy. Yes, sir.
    Mr. Chaffetz. This is current law, right, that we are 
supposed to have an entry/exit program. Why don't we have an 
exit program?
    Mr. Murphy. We are working on it, sir.
    Mr. Chaffetz. You have been there for a while. How long 
have you worked in the agency?
    Mr. Murphy. Twenty-nine years, sir.
    Mr. Chaffetz. Why don't we have an exit program? It is not 
good enough to just smile at me.
    Mr. Murphy. No, sir. I don't have a good answer for you. We 
know it is an issue.
    Mr. Chaffetz. Is it a funding issue? Is it a lack of 
commitment? Is there not available software? If you are telling 
me we are gauging when they come into the Country, why aren't 
we gauging when they go out of the Country?
    Mr. Murphy. I think it is a huge issue and unfortunately, 
it is a costly issue too. We would have to replicate what we 
have coming into the Country at ports of entry almost at port 
of entry going out of the Country in order to probably get our 
arms around that exact issue.
    Mr. Chaffetz. We are told that 40 percent of the people 
here illegally came here legally. When we don't have a viable 
exit system and there are no metrics, there is no information, 
there is not even an attempt to try to gather some names, I am 
really concerned about the entry/exit program. I am really 
concerned about the B1, B2 visas. I think it is the untold 
story of the immigration problem and mess that we have.
    When the majority of the visas given out to this Country 
are given via the B1, B2 entry/exit, 4.3 million we gave out in 
fiscal year 2011, what is the rule? You are only supposed to go 
into the Country a certain 10 miles or something with an entry/
exit card, correct?
    Mr. Murphy. I think it was 25. We just increased that 
recently.
    Mr. Chaffetz. Why? Why did we increase it? Increased it to 
what?
    Mr. Murphy. I believe in New Mexico it is 55 miles.
    Mr. Chaffetz. In certain parts of the Country, you are only 
supposed to go 10 miles, in some it is 25 and now you are 
saying in parts of New Mexico you can go 55 miles. Do we do any 
monitoring of that?
    Mr. Murphy. No, sir.
    Mr. Chaffetz. There is no monitoring, we just do it on your 
word. We have millions of these out there. Do you know how 
many? We issued 4.3 million entry/exit cards in 2011. How many 
cards are out there? When you get a card, how long is that good 
for? Is it valid for just a year or is it valid forever? Do you 
know?
    Mr. Murphy. I don't know offhand. I do know they put a date 
on how long it is valid, yes, sir.
    Mr. Chaffetz. So there are millions of these cards out 
there. It is just the honor system right now, right? You are 
just supposed to come back but you are not gauging even a 
single person as to whether or not they are returning?
    Mr. Murphy. We are not capturing that right now.
    Mr. Chaffetz. My time has expired. I now recognize the 
gentlewoman from Wyoming, Ms. Lummis, for five minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I want to also thank the gentlemen and the lady for being 
here today.
    My questions are going to concentrate on the fence as a 
mechanism to stop trans land crossings. Has the fence between 
California and Mexico improved the crossing of undocumented 
workers and illegals? Mr. Fisher, you are nodding your head?
    Mr. Fisher. Yes, Congresswoman. The fence, and in 
particular, you mentioned San Diego, has had an impact in 
reducing the flow of people into the United States in those 
areas where we do have that.
    Mrs. Lummis. How much of the fence is completed on the 
Arizona-Mexico border?
    Mr. Fisher. In total, there is about 652 miles across the 
southwest border that has been completed. Some of that is 
pedestrian fence and some of that is vehicle barriers. I am not 
really sure specifically in Arizona how much. Arizona has about 
260 miles of border. Within those urban areas in Douglas, Naco 
and Nogales out to both the east and west flanks of the ports 
of entry, that has been extended a significant number of miles.
    Mrs. Lummis. Do you believe that completing a fence on the 
border between Mexico and Arizona would be beneficial to 
preventing the flow of people and narcotics across the border?
    Mr. Fisher. I do, in some locations.
    Mrs. Lummis. What locations would those be, specifically 
along the Arizona-Mexico borders?
    Mr. Fisher. It would be in those areas where the networks 
and criminal organizations like to exploit the legitimate 
infrastructure that exists.
    Mrs. Lummis. Such as? What is legitimate infrastructure?
    Mr. Fisher. If you think of a smuggling organization much 
like a business, they are trying to move a commodity, whether 
that is people or narcotics, through the borders and out the 
border areas. The infrastructure that requires them to do that 
is road systems, airports, bus stations and all that legitimate 
infrastructure supports the communities within those border 
areas.
    Mrs. Lummis. What about wilderness areas where we don't 
have fencing, where you have been restricted by other U.S. 
agencies from using motorized vehicles in wilderness areas and 
the offending parties are using vehicles making it difficult 
for you to apprehend them? Is that problematic?
    Mr. Fisher. In some areas, I wouldn't qualify it as 
problematic. There are areas, as you mentioned, public lands in 
Arizona, which prohibit in most situations on a steady state 
deployment, motorized vehicles. We do have, and have entered an 
agreement with the Department of Interior and Fish and Wildlife 
to be able to go into those areas based on intelligence if we 
know there is activity. We are allowed onto those areas to 
basically track individuals that come across.
    Mrs. Lummis. So you have to get agreements with another 
federal agency to gain access to federal land on our side of 
the border?
    Mr. Fisher. The agreement has already been set. In other 
words, the Memorandum of Understanding allows us to go onto 
those lands. Remember, some of that public land is protected 
under the environmental laws. It doesn't preclude us from going 
on there, just we have the agreement that we are allowed to go 
in when we are actually working the border.
    Mrs. Lummis. You can pursue someone?
    Mr. Fisher. Yes, we can.
    Mrs. Lummis. But can you protect the border? Can you patrol 
the border?
    Mr. Fisher. In some areas, in most areas, we can.
    Mrs. Lummis. With vehicles?
    Mr. Fisher. Yes, we do it with vehicles, we do it with 
horseback and a lot of the detection is made from the air also.
    Mrs. Lummis. The Tucson border has been an area where we 
have seen significant crossings?
    Mr. Fisher. That is correct.
    Mrs. Lummis. Is that now the second most prevalent area to 
cross?
    Mr. Fisher. In terms of apprehensions right now, it is 
second only to Rio Grande Valley in the south Texas area.
    Mrs. Lummis. It continues to be a major source of 
crossings?
    Mr. Fisher. Yes.
    Mrs. Lummis. What would be your recommended best deterrent 
to illegal crossings in that area, in Mexico and Arizona?
    Mr. Fisher. There are a couple things. I wouldn't invest on 
one thing in particular. One investment would be additional 
technology, detecting and monitoring.
    Mrs. Lummis. We have seen some technology reports that some 
of the technology has failed and was expensive and its failure 
has not necessarily been corrected. How is that going? The 
SBInet, what is the Department's plan to improve that 
technology, the border radar system?
    Mr. Fisher. About three years ago when SBI was being 
assessed, Secretary Napolitano asked CBP, in particular the 
Border Patrol, to make an assessment on whether we should 
continue exploring that type of technology and integrated 
technology that SBI had planned.
    Mrs. Lummis. $1.2 billion, as I understand, has been spent 
on that?
    Mr. Fisher. That sounds about right, yes.
    Mrs. Lummis. You are assessing now whether that is going 
forward in a productive way?
    Mr. Fisher. We made that assessment and our recommendation 
to the Secretary, which she agreed to, was to invest more in 
the mobile technology and not to invest in things like SBInet 
which were more static.
    Mrs. Lummis. My time has expired. Thank you, Mr. Chairman.
    Mr. Chaffetz. Mr. Fisher, will you please provide to the 
committee the Interagency Working Agreement on your ability to 
patrol and pursue potentially people who are here illegally on 
public lands that are designated wilderness or similar, the 
wilderness study areas, those types of things. Organ Pipe, for 
instance, would be an area. Is that something you can provide 
to the committee?
    Mr. Fisher. Yes, Mr. Chairman.
    Mr. Chaffetz. How long would it take to get that to us?
    Mr. Fisher. I will take that back as an action item right 
after the hearing.
    Mr. Chaffetz. When is a reasonable time that I should get 
upset that you haven't provided that to me?
    Mr. Fisher. Far be it for me, sir.
    Mr. Chaffetz. You are in charge here, so you make a 
decision. What is the date? All right, July 3 of this year, is 
that fair?
    Mr. Fisher. You read my mind.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentleman from Tennessee, Mr. 
Duncan, for five minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    Mr. Fisher, just out of curiosity, can you give me a rough 
number of how many Border Patrol agents there were when you 
started with the agency 26 years ago?
    Mr. Fisher. Less than 3,000.
    Mr. Duncan. Less than 3,000?
    Mr. Fisher. Yes, sir.
    Mr. Duncan. The reason I asked that, I remember we gave 
billion increases in funding for border control in the 1990s 
and how we have heard Ms. Gambler say that since 2004, we have 
gone from 10,000 to 21,000 agents. Now the Senate has passed an 
amendment saying we are supposed to double that again.
    Frankly, I know you can never satisfy any government 
agency's appetite for money or land, but I am really skeptical 
as to whether we can efficiently and effectively spend all the 
money that we are throwing at this effort and increase the 
number of agents that much that quickly. What do you say about 
that Commissioner Murphy? How big was Customs when you started 
29 years ago?
    Mr. Murphy. To be honest with you, I don't know what that 
number is. As you indicate, there is significant work to be 
done but as to the determination of the right number, I think 
that is obviously something that has to be decided.
    Mr. Duncan. Isn't the number coming across in large part 
determined by the economy, the economy in Mexico and here, 
because I read during our down turn the numbers coming across 
greatly decreased and a lot of people who had come here 
illegally were going back to Mexico or other countries? Is that 
true?
    Mr. Murphy. As you may be aware, one thing that we have 
done to try to transform the way we look at the border and the 
numbers we need, we created the Workload Staffing Model. This 
takes 100 different data element and over a million 
calculations that takes into account the current volume of 
activity, apprehensions, seizures, hours of operation and how 
many folks are onboard now.
    It is a very dynamic process. It will tell you based upon 
that workload and the time it takes to do those different 
functions in the workload, how many bodies that you need. The 
nice thing about this one is it is not a static process. It is 
a very dynamic process. In the case where you see an uptick in 
activity at a port of entry or an area for a year or two, that 
Workload Staffing Model will dictate what that number should be 
based on that volume, activity and workload.
    Mr. Duncan. Let me stop you. A lot of what you said is very 
bureaucratic and I have just a little bit of time left.
    Mr. Homan, what do you say about the statement by Ms. 
Gambler that because of the transition from using operational 
control and so forth, she says, therefore, until new goals and 
measures are developed, DHS and Congress could experience 
reduced oversight and DHS accountability? What do you say about 
that? That is a pretty serious charge.
    Mr. Homan. Yes. I can say we are shoulder to shoulder with 
Border Patrol. Our level of collaboration has never been 
higher. My staff meets with the Border Patrol staff at least 
once a week talking about enforcement strategies on the border. 
As a matter of business, we detain all recent border entrants, 
so I think we are doing the right thing.
    I think with the resources we have, I think we are 
executing the mission at an all time high. My removals are at a 
record high, my arrests are at a record high, my detentions are 
at a record high. I think the mission, us and the Border Patrol 
working hand in hand, along with CBP, makes sense.
    Mr. Duncan. The Chairman mentioned 4.3 million coming 
across just on one program. Can anybody on the panel tell me 
how many people are entering this Country legally each year? 
Ms. Gambler, do you know anything about that? Somebody should 
know that.
    Ms. Gambler. We could provide that number for the record. I 
don't know it off the top of my head.
    Mr. Duncan. What are the latest estimates as to how many 
are coming across illegally? Surely this panel should know 
something like that. Your latest guesses or estimates?
    Mr. Fisher. Our estimates right now, we are averaging 
approximately, this fiscal year 2013, 1,100 apprehensions. If 
you take a look at what we are trying to design as it relates 
to the effectiveness rate, in getting what the Chairman 
mentioned as the denominator, trying to get that known flow, we 
don't have those estimates right now but we are working towards 
getting that as well.
    Mr. Duncan. I think that is something you should provide to 
us as soon as you get it.
    Thank you very much.
    Mr. Chaffetz. Following up on that, Mr. Fisher, how many 
turn back south per day?
    Mr. Fisher. I don't know specifically what that number is 
but we do track that and I can get that.
    Mr. Chaffetz. How many got-aways?
    Mr. Fisher. I can do that as well. I don't have that number 
off the top of my head. The effectiveness rate alone on the 
southwest border right now is approximately 75 percent.
    Mr. Chaffetz. Again, I really challenge that number as I 
think the GAO does. Those are just the known got-aways, does 
not include turn back souths or TBSs?
    Mr. Fisher. It includes all those variables, includes all 
the apprehensions, the got-aways and the turnbacks. That is the 
effectiveness formula. When you take a look at the 
apprehensions, you add those to your turnbacks and divide that 
by the total entries, that is the effectiveness rate.
    Mr. Chaffetz. What about the ones we are not aware of?
    Mr. Fisher. There are two different methodologies we use. I 
mentioned earlier in my testimony the geospatial intelligence 
piece and the use of the Predator Beast is to do just that, to 
shrink the border, increase our situational awareness so that 
we have a better sense of what that number is to cover a lot 
more of that border.
    Mr. Chaffetz. I will now recognize the gentleman from South 
Carolina, the always dapper Mr. Gowdy.
    Mr. Gowdy. Thank you, Chairman Chaffetz.
    I want to welcome all of our witnesses.
    Chairman Chaffetz shared a bit of philosophy with me a 
couple of nights ago at dinner and I wrote it down to make sure 
I got it right. He said if you don't know where you are going, 
you probably won't know when you get there.
    Ms. Gambler, I am asked constantly about border security. 
Tell me what is an ambitious but reasonable goal with respect 
to border security to the extent that it is a condition 
precedent to any other part of immigration reform? What are we 
looking for?
    Ms. Gambler. Congressman, setting a goal for border 
security would be the responsibility of DHS or would be a 
policy call on the part of Congress.
    Mr. Gowdy. I know, but I am asking you if you were empress 
for the day, what would you do? What is a realistic but 
ambitious goal?
    Ms. Gambler. Again, that is a responsibility for the 
Department to set that goal and that is a policy call for 
Congress. As would be the case for any bill, GAO's role would 
be to review the implementation of any provisions or programs 
that the Executive Branch might implement resulting from a bill 
if we were asked to do so.
    Mr. Gowdy. How long have you worked for GAO?
    Ms. Gambler. I have been with GAO since 2002.
    Mr. Gowdy. That is 11 years?
    Ms. Gambler. Yes.
    Mr. Gowdy. Surely you have an opinion on what is likely to 
work because you probably are following the debate just like 
the rest of us are. Before you get to any other aspect of 
immigration reform, they want to make sure the border is 
secure. That is an easy phrase to use but it is a hard phrase 
to implement. What is a realistic definition of a secure 
border?
    Ms. Gambler. What we recommended is that the Department of 
Homeland Security set a goal for its border security efforts 
and then set metrics for assessing progress made against that 
goal. DHS is in the process of developing those goals and 
measures. We have suggested that they set time frames for 
completing those goals and metrics so that there are mechanisms 
in place for assessing what the goal is for border security and 
how that can be measured.
    Mr. Gowdy. Why is there not currently a goal or am I just 
naive?
    Ms. Gambler. Up until fiscal year 2011, DHS was using 
operational control as its performance goal and measure for 
border security. They discontinued using that measure in fiscal 
year 2011.
    Mr. Gowdy. Why?
    Ms. Gambler. They told us they wanted to move toward more 
quantifiable metrics for border security and using the number 
of apprehensions on the southwest border was designed to be an 
interim measure. DHS has said they were going to put those 
metrics in place by fiscal year 2012 but have been using the 
number of apprehensions as the interim measure. We recommended 
again that they set time frames and milestones for completing 
development of those goals and measures.
    Mr. Gowdy. Let me ask it another way. If you had to go back 
to your hometown and stand in front of people asking you 
whether or not the border was secure, what metrics would you 
use in answering their question?
    Ms. Gambler. If I was asked that question, I would say the 
Department has not yet set goals and measures for assessing how 
secure the border is, so that makes it difficult to assess 
against criteria or a yardstick on the level of security.
    Mr. Gowdy. Difficult may be an understatement. It makes it 
kind of hard for those of us interested in getting on to the 
next steps of immigration reform if you don't get over the 
condition precedent and prove to your constituents that you 
have a reasonable but ambitious border security goal. It makes 
the rest of it pretty tough.
    Visa overstays, do you know how they are currently 
investigated?
    Ms. Gambler. We issued a report on overstays in April 2011 
and have ongoing work looking at overstay enforcement efforts 
as well. That ongoing work will issue in July, next month.
    Mr. Gowdy. I promise I am going to read the report, but you 
already know something about the issue. Currently, if Mr. 
Chaffetz were here on a visa and he overstayed, how would we 
know, how would we investigate, how would we decide what we 
were going to do about it? What is currently being done?
    Ms. Gambler. If a foreign national enters the U.S. and 
there is no corresponding departure record for that person, 
that record would be checked against numerous DHS databases and 
would be prioritized against ICE's law enforcement and public 
safety priorities. If the person met those priorities, their 
information, their record would be sent forward for 
investigation to ICE field offices.
    Mr. Gowdy. You wouldn't have to wait for that person to 
commit some other offense or have some other interaction with 
government, would you?
    Ms. Gambler. The overstays that ICE is prioritizing for 
investigation are those who meet their public safety and 
national security priorities. If the person would not meet 
those priorities and they were likely an overstay, they would 
not be investigated by ICE.
    Mr. Gowdy. Mr. Chairman, I was going to thank them for 
their service and I was going to ask them about what role, if 
any, State and local law enforcement should play in assisting 
them but I am out of time. I yield back.
    Mr. Chaffetz. I thank the gentleman.
    I think the gentleman from South Carolina would be most 
interested to know that based on the formula that Ms. Gambler 
just shared, the majority of visas that we give out in this 
Country are B1, B2 entry/exits. Mr. Murphy testified that they 
don't track any of the exits, none of them, so we have 
absolutely zero information about who may be overstaying, who 
may have gone beyond the bounds because they are variable. They 
are only supposed to go into certain parts of the Country.
    It is probably the biggest, gaping hole we have on our 
border. There is no tracking, there is no information, there 
are no statistics and no field reports. There is nothing unless 
that person commits a crime.
    I would hope that the agency would be able to provide, 
through maybe the Department of Justice and others, a report of 
how many people committed crimes that came here on a B1, B2 
entry/exit visa. Somehow or some way we are going to unearth 
that number.
    Now I will recognize the gentleman from Michigan, Mr. 
Bentivolio, for five minutes.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Thank you very much for appearing here today. We really 
appreciate it. Maybe you can help me clear up some questions I 
have.
    I keep hearing in the media we have 11 million people here 
who should not be here. How did we arrive at that number? If 
you have no way of knowing who you didn't catch, how do you 
come up with a figure of 11 million?
    Mr. Fisher. Congressman, I don't know where that number 
comes from.
    Mr. Bentivolio. I keep hearing it in the media.
    Mr. Fisher. I have heard it as well but I don't know where 
that came from.
    Mr. Bentivolio. So it is really not 11 million and could be 
more, right?
    Mr. Fisher. I don't know that either.
    Mr. Bentivolio. We really do not know it, do we because it 
is the old saying, if the crime is committed and nobody was 
there, how do you know the crime was committed except by 
evidence, but we don't have any evidence.
    What percentage of the border does technology cover?
    Mr. Fisher. I don't know the percentage. That is a good 
question. I could find out and get back to you. Specifically, 
we have approximately 15,000 pieces of equipment covering about 
17,000 miles. It doesn't cover all 17,000 and that is based on 
the military specs in terms of what the equipment can do. You 
then have to take into consideration the geography and the 
topography in which it is located. I don't know the percentage 
but we can factor that as well.
    Mr. Bentivolio. I also heard you have cameras that do 
thermal imaging and other cameras. When you detect somebody 
crossing illegally, what is the response time?
    Mr. Fisher. It really depends on where the entry is 
detected, depending on where we have patrol agents, depending 
on whether we do it within the first 100 meters or whether we 
do it within the first mile. Terrain is going to dictate that. 
The tactics and techniques of the agents on the ground will 
determine where is the best way to make the approach in a safe 
and secure manner.
    Mr. Bentivolio. A Border Patrolman told me there was an 
alert, he had to go out there and there were 26 people and they 
just scattered. My question is, how do you send one or two 
Border Patrol agents to pick up 26 people, especially in the 
terrain that I was in when I toured the border? Is there 
another way? He said well, they caught three but 23 got away. 
Is that how we determine the number of 11 million?
    Mr. Fisher. I don't believe so but to your earlier point, 
whether there is one Border Patrol agent that responds or 
whether there are two or three Border Patrol agents, really 
determines on how they are applying the strategy on the ground. 
In some cases, the Border Patrol agent may not know how many 
people, there may be just a sensor indication, so we may not 
have specific quantities of individuals that may have made the 
incursion.
    Many times, Border Patrol agents are assisted with air to 
ground support. Our Office of Air/Marine Operations provides 
over watch for us in that regard. Our strategy is built on 
being able to deploy and redeploy resources for those Border 
Patrol agents if in fact they come across a group of 23 and 
they run.
    Generally, what would happen is we would continue tracking 
operations and more resources would be brought to bear to be 
able to continue to track to the extent possible and make sure 
that we apprehend everybody that comes across in between the 
ports of entry.
    Mr. Bentivolio. I also heard stories of hang gliders flying 
out of Mexico when I was there, personal gliders, dropping off 
drugs to the United States and then flying back. Are you doing 
anything to stop that?
    Mr. Fisher. Yes, sir. As a matter of fact, I believe you 
are referring to the ultra lights over the last few years. One 
of the things I alluded to in my testimony was when you look at 
the transnational criminal organizations and those networks 
that own and operate within the border areas, they are always 
going to adapt their operations to be able to increase their 
profit margin. One of the things we have seen is the ultra 
lights.
    We are working with the Marine Operations Center in 
Riverside, California which gets radar feeds from throughout 
the United States to be able to adjust those radar to be able 
to detect low flying aircraft like the ultra lights. It is not 
perfect yet. We also have Border Patrol agents that use mobile 
surveillance systems on the ground and be able to look up and 
be able to identify those ultra lights as well.
    Mr. Bentivolio. Maybe you could explain to me what the term 
catch and release means?
    Mr. Fisher. Catch and release was a phrase a few years ago 
and I believe it was coined, maybe not the first time, but used 
quite a bit by Secretary Chertkof when he was Secretary of 
Homeland Security.
    It was meant when we were seeing increases in activity in 
locations that part of the policy at the time was people we 
were going to apprehend in between the ports of entry, we were 
not going to just release on what we would call their own 
recognizance. Today certainly in high risk areas, we want to 
maintain the policy of catching individuals that have come 
illegally between the ports of entry and make sure they are 
detained.
    Mr. Bentivolio. So a person who came here illegally, you 
catch them and then you release them on their own recognizance?
    Mr. Fisher. No, sir. The current policy really was to end 
catch and release. In some locations over the years, depending 
upon fluctuations and funding availability for the enforcement 
and removal operations, individuals that would request a 
hearing from an immigration judge, if they did not pose any 
risk to the public and there was no detention space allowed, 
there was a provision within the administrative piece to 
release them on their own recognizance pending their 
administrative hearing with the judge.
    That policy was adjusted depending upon what resources are 
available and it fluctuates to be able to minimize risk.
    Mr. Bentivolio. Mr. Chairman, I have one more question.
    Mr. Chaffetz. Go ahead.
    Mr. Bentivolio. Thank you.
    They would go in front of a judge and the judge would 
release them, correct?
    Mr. Fisher. Generally, because I am not the expert, the 
real Border Patrol agents do the work in the field, but 
generally, what would happen is once we made the determination, 
we issued a warrant of arrest and a notice to appear. That 
notice to appear was for an immigration hearing.
    Mr. Bentivolio. How many would come back and actually 
reappear before the judge? Do you have a percentage that come 
back, do they all come back or just 50 percent, 75 percent?
    Mr. Fisher. I don't have that number right off the top of 
my head, but it would depend on which year you are talking 
about or recently.
    Mr. Bentivolio. It is probably closer to about 10 percent, 
would that be right?
    Mr. Fisher. I would not want to guess at that.
    Mr. Bentivolio. Thank you.
    Mr. Chairman, I yield back my time. Thank you.
    Mr. Chaffetz. I now recognize the Ranking Member, the 
gentleman from Massachusetts, Mr. Tierney, for five minutes.
    Mr. Tierney. Thank you, Mr. Chairman.
    I thank the witnesses for their testimony here today. It 
sounds like you have a relatively easy job, gentlemen, 
challenging to say the least.
    Over the last decade, the U.S. taxpayer has funded tens of 
billions of dollars in additional personnel, technology and 
infrastructure along that southwest border. I think we have 
installed radiation detection portals, non-intrusive imaging 
equipment, license plate readers, camera systems, fencing, and 
the list goes on.
    Despite the staggering sums of that money, we know that 
cartels are still able to bring illicit drugs into the Country; 
persons looking for work still cross over; and organized crime 
networks still manage to smuggle various forms of contraband 
through these ports of entry.
    Nobody disputes the fact that this guns, guards and gates 
spending has been effective to a degree, but not all spending 
is equal, I guess. As we move forward, we will take a look and 
see which areas of investment are more effective and produce 
better results.
    Let me begin with you, Chief Fisher, on the gates. As I 
understand it, building the border fence or improving the 
existing fence makes sense in some locations but may not make 
sense in others. For instance, just west of San Ysidro, 
California, people say it helped control illegal crossing 
problems there. Others say that it provided significant 
benefits in other locations, particularly in urbanized crossing 
corridors. Does that sound accurate to you?
    Mr. Fisher. It does.
    Mr. Tierney. Ms. Gambler, I also understand that GAO has 
questioned the effectiveness of the fence and often looks at 
the high cost of building the fence. That question has been 
raised for a number of years. Is that also true?
    Ms. Gambler. In our work, Congressman, we did find that DHS 
had not taken steps to assess or quantify the contributions 
that fencing is making to border security. We recommended that 
they conduct a cost effective analysis to do that.
    Mr. Tierney. If Congress were to decide to double the size 
of the existing fence or at least add hundreds of additional 
miles to it, how would the department determine where to build 
that extra fence?
    Ms. Gambler. I don't know how they would determine where to 
build the fence, but they do have analysis under way in 
response to our recommendation to determine what contribution 
fencing is making to border security efforts. That would be an 
important question going forward.
    Mr. Tierney. I am guessing that it makes sense to add 
fencing in some areas and may be a total waste in others. Is 
that generally true?
    Ms. Gambler. That would be for the Department of Homeland 
Security to determine.
    Mr. Tierney. Mr. Fisher or Mr. Murphy, does that sound true 
to you, that in some areas it would be a good investment and in 
others, it may not be a good investment at all?
    Mr. Fisher. That is accurate, sir, yes.
    Mr. Tierney. Are you comfortable that the Department is 
putting criteria in place to help identify which areas are 
which?
    Mr. Fisher. I am, sir, yes.
    Mr. Tierney. Ms. Gambler, there are also proposals to add 
new sensors, technology, camera systems, all along the border 
to detect illegal crossings. I know that GAO previously 
reviewed some major technology problems with the SBInet and 
found hundreds of millions of dollars have been squandered in 
that effort and there were challenges that had to be overcome.
    Before we invest billions of dollars in that type of 
technology, can you tell us what lessons were learned from that 
whole SBInet situation?
    Ms. Gambler. Our body of work looking at DHS' management of 
border security, border surveillance technologies has 
identified challenges in the management of that technology, 
including the technology being delivered on schedule and within 
cost parameters that were set for the technology.
    Back in 2012, we issued a report on DHS' new plan for 
deploying border surveillance technologies to Arizona. One of 
the key findings from that report was that DHS had not fully 
documented the underlying analysis and justification used to 
support the types, quantities and locations of technologies it 
plans to deploy under that new plan.
    Mr. Tierney. You are comfortable that the department is 
responding to your report and your recommendations?
    Ms. Gambler. The department did agree with those 
recommendations and is taking steps to address them. We do have 
ongoing work reviewing that new plan and are monitoring DHS' 
actions to respond to our recommendations.
    Mr. Tierney. Now we are talking about possibly increasing 
the number of agents exponentially on that basis. What steps 
should the Border Patrol take to make sure the increase in 
personnel is effectively utilized, that they are placed in the 
right places in the right numbers?
    Ms. Gambler. The Border Patrol issued its new strategic 
plan last year in May 2012. As part of implementation of that 
plan, we understand the Border Patrol is developing a process 
for assessing what resources are needed and how to deploy them. 
We understand that process is moving forward and they are 
looking to implement it in fiscal years 2013 and 2014.
    Mr. Tierney. Mr. Fisher, can you tell us a bit more about 
that?
    Mr. Fisher. Certainly within the framework of the strategy, 
we really focused our efforts on being risk-based as opposed to 
just asking for more and more resources and deploying them in a 
lateral fashion across the southwest border. That was a 
significant strategic shift in our thinking and certainly 
within our deployments over the last couple of years.
    As we moved forward, we also recognized that technology has 
come a long way. I can remember as a young agent getting the 
first pair of AMPBS-7 Bravos which were the old night vision 
goggles from the military after the first Gulf War. I thought 
at that point we were really going to make a difference in 
border security because now for the very first time as an 
agent, at night I was able to see five feet in front of me. I 
thought that was going to change the operation by which the 
Border Patrol started back in 1924.
    We continue to learn and adjust with the technology. I will 
tell you as good as technology is getting, the more technology 
we get, it is still no replacement for a well trained Border 
Patrol agent because at the end of the day, it doesn't matter 
what you have flying in the air, it doesn't matter how many 
unattended ground sensors you have buried on the ground, the 
Border Patrol agent still while at times alone, as we have 
heard today, has to close that 50 meters by himself or herself.
    The thinking and the training of those Border Patrol 
agents, who as we speak right now, are out there on patrol, 
there is no substitute for that. I am very proud of the work 
they do. It is a combination of taking a look at the best 
technology that is available, taking a look at the 
infrastructure and continuing to train and support the Border 
Patrol agents is the best way. That is the way we are 
approaching the implementation against this new strategy.
    Mr. Tierney. Thank you. Thank you again for your work and 
for your testimony here today.
    Mr. Bentivolio. [Presiding] The Chair will now recognize 
the gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    Chief Fisher and Mr. Murphy, in your shared testimony, you 
said the following, ``We do not use this term 'operation 
control' as a measure of border security because of the complex 
nature of the magnitude of different border conditions cannot 
be described by a single objective measure. Although an 
indicator of success, we cannot measure border security solely 
based on crime rates because even the safest communities in 
America have some crime.''
    If you are claiming that one objective measure is not 
enough to measure border security, then why is only one 
measure, apprehension rates, used or cited when top DHS 
officials try to pass off our southern border as secure?
    Mr. Fisher. Apprehension still is the metric that we 
capture and report to the Department. However, we have learned 
quite a bit over the last couple of years and I think Ms. 
Gambler talked on some of that. The apprehension number really 
doesn't tell you much because if you compare and contrast it 
from previous fiscal years, as the Chairman mentioned, if it 
goes up I can say that is success and if it goes down I can say 
that is success.
    We recognized a few years ago that in and of itself was not 
a good metric, but you need the apprehension to then peel back 
the layers to understand how many people within that total 
population of arrests were there because recidivism doesn't 
matter. It is important to me and important to the organization 
to distinguish those individuals who are only apprehended two 
times from those individuals that were apprehended perhaps six 
or eight times.
    Mr. Gosar. Would you agree, Mr. Murphy?
    Mr. Murphy. From our standpoint as I indicated in my 
testimony earlier, we look at it as a well managed border. I 
don't think there is one single metric. There are a variety of 
things that we do look at, but I think what we have tried to do 
is to look at transforming the way we do business, our 
processes, bringing in new technology, trying to basically do a 
better job much more efficiently.
    In that way we feel we will have much more success, not 
only from the standpoint of apprehensions or seizures, but also 
from the standpoint of facilitating the legitimate flow of 
traffic and trade.
    Mr. Gosar. Are you aware of an experiment in which a drone 
actually looked at a corridor over time and looked at 
apprehension rates and made a comparison of actually who 
crossed that border versus apprehension rates? Are you aware of 
that study?
    Mr. Murphy. No, sir.
    Mr. Gosar. Actually, it is very staggering because it 
showed there were 422 apprehensions, but in actuality, there 
were over 7,000 people that crossed the border. Are you aware 
of that, Ms. Gambler?
    Ms. Gambler. We have not seen that study.
    Mr. Gosar. Really, and we are going to trust our border 
security with Homeland Security and we still don't understand 
that? How familiar are you with the numbers you are citing to 
the American public and Congress in regard to the number of 
illegal immigrants in this Country?
    Ms. Gambler. In terms of the data we reported in our 
December 2011 report, we reported the data that Border Patrol 
had available.
    Mr. Gosar. Based on apprehensions. This is showing you in 
this technology aspect that we are showing less than six 
percent actually being apprehended versus what is actually a 
known factor, is that true?
    Ms. Gambler. Again, we looked at the data that the Border 
Patrol was collecting at the time that we did the work. We 
looked at number of apprehensions, as well as estimated known 
illegal entries and presented that data. We did also identify 
some limitations with that data.
    Mr. Gosar. It is very antiquated. I am just pointing out 
that when you are citing these studies, they are antiquated 
measures. We need to have more opportunities, a diverse 
opportunity and not just from Federal Government, State and 
locals to look at the metrics in regard to border security, 
would you agree?
    Ms. Gambler. We recommended and the Department is in the 
process of setting goals and metrics for border security. We 
recommended they come up with time frames for completing that 
effort so that the measures can be completed in a timely 
manner.
    Mr. Gosar. Does that include State and local officials so 
that we have a uniform policy enforcement all the way through 
this Country, not just on border?
    Ms. Gambler. It would be for the department to set what 
those goals and metrics are.
    Mr. Gosar. I will be honest with you. I am not real 
comfortable. I am from Arizona and we have some problems there. 
Border security should be a uniform policy that is all the way 
through.
    I can tell you coming from a number of people within my 
conference, it is not going to be left up to Homeland Security, 
it will be a joint venture in regards to having border security 
so that we see the metrics from Border Patrol all the way and 
encompassing all avenues of law enforcement.
    I think that is what the American public wants. We have 
limited resources. Homeland Security has not really restored a 
lot of trust. Trust is a series of promises kept and we don't 
find much of that with Homeland Security.
    Let me ask you an other question. How do you feel about 
border security around Yuma, Arizona?
    Ms. Gambler. Around Yuma, Arizona, in our work when DHS was 
using operational control as its performance measure for border 
security, Yuma reported that its miles were under operational 
control. That was up to fiscal year 2010.
    Mr. Gosar. I have to take a little leniency here because it 
actually is one of the shining stars in regard to border 
security. That is the proper answer. In fact, in that segment, 
there has not been an illegal border crossing in that 40 or 50 
miles in the Yuma sector for over six years, isn't that true?
    Ms. Gambler. I am not aware of that specifically.
    Mr. Gosar. When you come here to represent what DHS has 
proposed, we need to have success models and Yuma is a success 
model. It has border fence, it has a unified application of the 
law from border security to law enforcement, and what is even 
more important is actually prosecution. Is that not true?
    Is that not true that those folks from the Tucson sector do 
not want to be pushed to the Yuma sector because they are going 
to get prosecuted?
    Ms. Gambler. We haven't specifically looked at that issue.
    Mr. Gosar. I am having problems once again. I am having 
somebody from Homeland Security I see on a Senate bill that we 
are going to entertain that you are going to have border 
security all the way through and you have no metrics, you don't 
know what works, you don't site that working and you are still 
coming up that we are going to entrust you with border 
security.
    Once again, Ms. Gambler, I want to say trust is a series of 
promises kept. Tell me why I should have to trust in the DHS?
    I will yield back for the second round of questions.
    Mr. Tierney. Mr. Chairman, might I interject for a question 
here? Ms. Gambler, you are with the Government Accountability 
Office, not Homeland Security, right?
    Ms. Gambler. I am with the Government Accountability 
Office.
    Mr. Tierney. I hope that would absolve you from some of the 
information being sought from you or the position sought from 
you. I think you are doing an excellent job. I just wanted to 
clarify that she is not Homeland Security.
    The other thing I was going to ask was if the gentleman 
would produce the study you mentioned at the beginning of your 
questions, who the author was, and make that available for the 
committee?
    Mr. Gosar. You bet.
    Mr. Tierney. Thank you.
    Mr. Bentivolio. The Chair now recognizes the gentlewoman 
from New York, Mrs. Maloney.
    Mrs. Maloney. Thank you for your hard work and for 
testimony today before the committee.
    I am concerned about commerce. Not only do we need to keep 
out bad products and homeland security and all that focus, but 
Mexico is a very important trading partner with America. It is 
our third largest trading partner. Our relationship has grown 
tremendously since NAFTA and significantly in the past years.
    Mexico has grown to be roughly $500 billion in bilateral 
trade. That is important to the economy of America and it is 
also sustained through the trade by some estimates of 6 million 
jobs in the United States. It has economic value that is 
important to our people. They say U.S. sales to Mexico are 
larger than all U.S. exports to the BRIC countries which are 
Brazil, Russia, India and China. In short, trade with Mexico is 
important for our jobs.
    I guess I should ask, Mr. Murphy, isn't it true that part 
of your profession is not only to protect the border but also 
to help facilitate trade between our two countries and at our 
ports of entry both land and sea. Is that true is that part of 
your goal, not only security, which is the number one priority, 
but also to allow legitimate fair trade?
    Mr. Murphy. You are absolutely right. We believe that 
border security and economic prosperity go hand in hand. 
Recently there was study done by USC, the Create Study, that 
showed by adding additional CBP personnel to ports of entry to 
help facilitate not only the border security aspect, but the 
trade facilitation aspect, it adds to the GDP, it reduces lost 
opportunity costs.
    We have partnered both with Canada and Mexico. We have our 
21st Century border and beyond the border initiatives. In 
Mexico, we are working on Otay Mesa and Laredo on pre-
inspection pilots, so we are partnering very closely with 
Mexico. We recognize the importance of trade. It is the life 
blood of our economy. I think that CBP and OFO have 
particularly matured in recent years in recognizing that 
dynamic and the importance of that trade.
    Mrs. Maloney. You mentioned the Laredo site and port and 
that is a very important site. I understand that 700 of the 
Fortune 1000 companies do international business through that 
port. Can you give an example on the ground of how you protect 
against terrorists, illegal guns and really bad things coming 
into our Country and also allowing the trade that is necessary? 
How do you make that happen in a way that allows the trade but 
also has the significant strength to stop terrorists, illegal 
guns or other activities?
    Mr. Murphy. There are a number of ways. We brought 
technology, number one. We have our RPMs there obviously for 
the detection of nuclear-radiological elements. We also have 
our license plate readers. On the southwest border right now we 
have our RFID technology. Right now, 60 percent of the 
documents being used on the border are RFID compliant. We are 
trying to again enable both trusted trader programs and our 
trusted traveler programs.
    From the standpoint of the trade, we are trying to focus 
our resources there. We are working on the trusted trade 
program with our CTPAD. We have a number of programs and a 
number partners with the industry. Laredo is a huge industry of 
trade for the United States. We recognize that fact and have 
directed our resources.
    I mentioned earlier the Workload Staffing Model which is a 
way that we can direct and allocate resources where they are 
truly needed, both from a trade standpoint and also from an 
enforcement standpoint.
    Mrs. Maloney. I read a synopsis of a report that I believe 
came from Princeton University, one of the think tanks. I am 
going to find that report and get it to the Chairman. It said 
that a side effect of the increased border security was that 
more immigrants were staying in the Country, that usually a lot 
of Mexican workers would come in, do seasonal work and then 
leave and go back to Mexico. However, now because the border is 
becoming much tougher to get in and out off, they are just 
staying in America.
    I would ask if anyone would like to comment? Have you seen 
that? Is there any substance to the idea put forward by this 
report?
    Mr. Murphy. I have not seen that.
    Mrs. Maloney. You have not seen that. Anyone else want to 
comment?
    Ms. Gambler. We have not seen that study. We have not 
reviewed that.
    Mrs. Maloney. Or the idea, have you seen that is happening?
    Ms. Gambler. We have not evaluated that issue.
    Mrs. Maloney. Thank you. My time has expired.
    Mr. Bentivolio. I would now like to recognize myself for 
five minutes.
    In February, I told my staff, after several long weeks of 
working hard, if I could find two days where I could go 
someplace warm with some sand and they sent me to Arizona to 
tour the border fence. It was a big eye opener.
    Earlier, Mr. Fisher, we discussed the ultra lights. If I am 
not mistaken, Border Patrol received $100 million for the ultra 
light problem. That is an awful lot of money and yet we really 
have not seen any significant change. Can you tell me what 
seems to be the problem? You could probably post quite a few 
Border Patrol agents just to sit there and look up in the sky 
with $100 million. Nothing seems to be getting done because I 
keep hearing it is a problem from the boots on the ground.
    Mr. Fisher. It has been defined as an emerging threat over 
the last couple of years and continues to be so today. One of 
the things to take into consideration is ultralights can really 
take off and land pretty much anywhere. The whole area of 
operation for the smuggling organizations opens up that 
aperture than other areas that we have seen across the 
southwest border.
    We have and continue to experiment with ground-based radar, 
to be able to tweak the radar to make sure that we are able to 
identify low flying ultra lights and others that may be flying 
in that particular area. The truth of the matter is we still 
look to find out and adjust our policies.
    First and foremost, as a law enforcement organization, we 
enforce laws in the United States and we do so with a matter of 
consistency and compassion within the Constitution. One of the 
challenges we face right now is even if we detect an 
ultralight, identify it and are able to track it with a U-860 
or a Black Hawk helicopter, the end game, if you will, has not 
been established in terms of what we can do to that particular 
ultralight because in many cases the ultra light when it makes 
entry to the United States, does not land.
    It will simply kick out its cargo, which to this point has 
been narcotics, predominantly marijuana, and there is a ground 
crew that later picks up the marijuana and moves on. It does 
not land in the United States but turns around and goes back 
into Mexico.
    We are working with the Department and with science and 
technology, to increase the effectiveness by which we detect 
the entry in the first instance by the ultra lights and then 
continuing to work within the law enforcement framework on how 
we can mitigate this evolving threat.
    Mr. Bentivolio. According to Border Patrol agents, the $100 
million detection program has not worked and has been a waste 
of taxpayer money. Border Patrol says ``Ultralight aircraft are 
impossible to stop. We don't have the technology.'' This was 
also reaffirmed on my official tour of Nogales with the Border 
Patrol. Another Border Patrol agent states, ``difficult 
mission, define drop locations, intercept narcotics and arrest 
smugglers, success rates are low.'' Those are comments from the 
boots on the ground, those guys in the trenches.
    We have this very expensive fence. It is 18 feet tall. I am 
asking questions and I just want answers. You cannot put razor 
wire on top because people are hopping over the fence, people 
are driving up and actually with a torch, cutting through the 
steel and sending people in that way. Then they are welding it 
back so the Border Patrol does not see it. There are also a 
number of tunnels and no real detection.
    I asked about dogs. Is there some problem with employing 
more dogs with our Border Patrol agents?
    Mr. Fisher. Not that I am aware of.
    Mr. Bentivolio. Instead of this $100 million on a system 
that does not work, we know dogs can detect things from the sky 
as well as on the ground. It is very low tech, maybe not as 
sexy, but what is your comment on that? Should we employ more 
dogs versus $100 million worth of high tech?
    Mr. Fisher. I would not suggest substituting canine and 
their handlers for technology or infrastructure. We employ 
approximately 300 canines and handlers throughout the border. 
They, along with horses and other types of technology we have, 
is a complement.
    The other thing to take into consideration, perhaps I would 
foot stomp this as well, is each section of the border is 
different. What may work in a place like Yuma, Arizona may not 
work in a place like Nogales. Some of the ultralight technology 
may not work in sections of El Paso, Texas but works really 
well in a place like El Centro, California.
    It is identifying the geography, the tactics, techniques 
and procedures of the criminal organizations, understanding how 
they operate, understanding the extent to which they are 
vulnerable so that we can then exploit that. There is no cookie 
cutter approach to be able to do that in my opinion.
    Mr. Bentivolio. Thank you.
    The Chair recognizes the gentlewoman from Illinois, Ms. 
Kelly.
    Ms. Kelly. Thank you.
    I would like to talk about the data issue. One thing that 
seems clear from today's hearing and from the Government 
Accountability Office's comprehensive review of the 
department's border security statistics is that the number of 
immigrants apprehended by the department or apprehensions has 
declined markedly along the southwest border between 2006 and 
2011.
    This amounted to about a 68 percent drop in apprehensions 
which seems to suggest the border enforcement is currently 
working. Ms. Gambler, do you infer this from the data, that the 
number of illegal border crossings has fallen and if so, isn't 
this a good thing?
    Ms. Gambler. The data we reported and that you cited was on 
apprehensions, so that is the number of illegal entrants the 
Border Patrol arrested. The data shows that apprehensions 
declined from fiscal year 2006 to 2011. The 2012 data reported 
by the Border Patrol indicate that apprehensions increased from 
fiscal year 2011 levels.
    In that report, we also provide data on estimated known 
illegal entrants by sector. Those numbers, as estimated by 
Border Patrol, did decrease in the southwest border sectors 
over that time.
    Ms. Kelly. The meaning of apprehensions data by itself 
seems to be the subject of some debate, it remains clear that 
the department continues to use this figure on an interim basis 
until it is able to develop an alternate approach and that 
poses some concerns. Ms. Gambler, how long has Border Patrol 
used the number of apprehensions as its interim performance 
goal?
    Ms. Gambler. They have been using that since fiscal year 
2011.
    Ms. Kelly. Chief Fisher, when will Border Patrol begin 
using a more comprehensive data point for measuring flows 
across the border?
    Mr. Fisher. We started developing those this year and will 
baseline this year and start with the new metrics in fiscal 
year 2014 which starts October 1.
    Ms. Kelly. Can you explain how the Border Patrol currently 
uses apprehensions data such as where to allocate resources?
    Mr. Fisher. The apprehension data, in and of itself, does 
not dictate where we deploy or redeploy resources. That 
decision is based on risk and it is done both in terms of my 
staff at headquarters looking at the strategic laydown of all 
forces within the northern, southern and coastal environments. 
It is really left in the hands of the field commanders in the 
field to be able to deploy and redeploy those resources within 
the areas that they have operational control.
    Ms. Kelly. If you were to get additional Border Patrol 
agents, where would you place them? Where do you see the 
biggest need?
    Mr. Fisher. We would look into areas for instance where we 
are unable perhaps to put fence or unable to put certain pieces 
of technology because it is a combination. It is not just 
putting in more Border Patrol agents. We have to do that in 
consultation with the field commanders and the Border Patrol 
agents to tell us what works or does not work. We would make 
sure we put the resources in the areas of highest risk along 
our borders and work out way back from there.
    Ms. Kelly. When you say they tell you what works and what 
does not work, how often do you check, every three months or 
every month? What is the evaluation process?
    Mr. Murphy. Quite frankly, with 21,370 Border Patrol 
agents, they are not shy to call me and let me know through 
email what works and what does not work. I appreciate their 
willingness to tell us in headquarters what is the best 
approach.
    Ms. Kelly. Ms. Gambler, do you have any current concerns 
about the apprehension data and how it is used?
    Ms. Gambler. In terms of the apprehensions data, that is 
data on the number of illegal entrants that the Border Patrol 
apprehends. In our December 2011 report, we did identify some 
limitations with the data that Border Patrol collects and 
estimates for what are called turnbacks and got-aways. The 
limitations with that data preclude Border Patrol from using 
that data to make comparisons in performance across sectors.
    Border Patrol issued updated guidance to the field in 
September 2012 to provide for a more common approach to 
estimating turnbacks and got-aways across the southwest border 
sectors and we understand that the Border Patrol sectors are 
implementing that guidance.
    Ms. Kelly. Chief, do you feel this will give a more 
complete data picture, including got-aways and turnbacks?
    Mr. Murphy. We are getting better at that but let me be 
clear, we have to be, I say we broadly, very careful of 
applying a very specific scientific method, in inaccuracy and 
certitude to a function and operation that does not allow that. 
We are going to do the best we can to determine how many people 
came in and of that number, how many people did we apprehend.
    No technology or system that I am aware of is going to, 
with 100 percent accuracy, make that determination going 
forward. It doesn't exist in other law enforcement 
organizations that I am aware of.
    Ms. Kelly. My time is up. Thank you.
    Mr. Bentivolio. The Chair now recognizes the gentleman from 
Arizona, Dr. Gosar.
    Mr. Gosar. Thank you again, Mr. Chairman.
    Before I start my second line of questioning, I want to 
make a point that we make sure that Mr. Langlois has had an 
opportunity to come before this committee. Either he comes here 
or we go there because I think we need to have this discussion 
in front of the American people.
    Ms. Gambler, one of the things that I am critical about, to 
be honest with you I am a big fan of GAO, but you cited a 
number of studies in regard to the gentlewoman from Illinois. I 
need to see that same type of application from where we are 
coming from in Arizona. I want to see some equal latitude.
    Mr. Fisher, you just made a comment that works in Yuma does 
not work anywhere else but the principles are the same, are 
they not, deterrent, enforcement, apprehension and also going 
before justice. Isn't that true?
    Mr. Fisher. The principles and the strategy apply but the 
application in different geographic areas do not.
    Mr. Gosar. I am happy with that.
    Let me ask you, Mr. Fisher and Mr. Murphy, in your 
testimony you said ``A secure border means living free from 
fear in their towns and cities.'' Do you feel the folks in 
southern Arizona can actually say that today?
    Mr. Fisher. In some locations, that would be accurate and 
in others, probably not.
    Mr. Gosar. Some. How about you?
    Mr. Murphy. Yes, sir.
    Mr. Gosar. I would say if we really want to start making 
this deterrent or dictation, probably about the 50 miles coming 
from the California border is secure; beyond going into the 
Tucson sector from that 50 miles, not secure. We have some type 
of problem with the Tucson sector and going further east, we 
have bigger problems, do we not?
    Mr. Fisher. In somewhat of a west to east quick look at the 
border. As you mentioned, that is always going to fluctuate 
with the criminal organizations adjusting their operations.
    Mr. Gosar. I know. From what I understand, we have a 
problem in the Tucson sector. It has shifted more to the Texas 
side. You are right but there are still some generalities that 
we can hold true, can we not?
    Mr. Fisher. Certainly.
    Mr. Gosar. Can we put the slide on the screen? These signs 
were found posted not at the border, not within 20 miles of the 
border, but were posted 80 miles from the border. Local law 
enforcement officers in addition to Customs and Border Patrol 
officers told us that our policies are failing, that the 
enforcement measures are so shoddy that it is equivalent to 
ceding parts of our great Country to cartels.
    I am saddened by the terrible amount of illegal activity on 
our southern border but I am down right angry that the Federal 
Government isn't doing its part to protect its own citizens. I 
do think that thousands of agents and officers that put their 
lives on the line day in and day but it seems there is such a 
disconnect between those on the front lines and the bureaucrats 
that have marched up here on the Hill to tell us what they 
think and what we want to hear.
    Thankfully, from time to time, we bypass the so-called 
proper channels and go directly to the source, which is what I 
do, I am a science guy, to get the raw intelligence before it 
is scrubbed and framed here in Washington.
    I have talked to numerous CBP agents during my time in 
Congress. The story they paint is far different than the one 
painted by DHS representatives here today and in the news media 
at large. One agent told me that the methods for counting 
border crossings are completely inadequate as the officers are 
told to count tracks going north.
    The problem is that the drug runners cover their tracks 
very carefully going north because they don't want to be 
tracked. The number found going north is often actually less 
than those found going south because the cartel members don't 
care if they are being apprehended going south. They have 
already dropped off their drugs and since they are already 
going south, they might as well get a free ride home.
    Another agent told me that when he first started, one of 
his supervisors started a meeting one day by saying 
``Apprehensions are down. We are not catching as many people.'' 
This particular officer lowered his head feeling that he and 
his colleagues were about to be scolded for not doing their 
job. He couldn't imagine when to his surprise he was 
congratulated and told ``good job'' by that same supervisor.
    One agent, a man who puts his life on the line each day, 
referred to the apprehension metrics by measuring border 
control as asinine. Whereas Napolitano, our Secretary, claims 
the border is safe and secure, better than at any time before, 
the people who actually do this for a living estimate they 
might apprehend 20 percent of border crossings on a good day.
    One of possibly the most discouraging and shameful things 
that I have been told by a CBP agent on the ground is they feel 
they signed up for one job when they actually have two jobs. 
They say their job is to fight the drug cartels and the so-
called coyotes, but all they say their job is a constant fight 
with the Federal Government. In their words, they have to fight 
their own employer to do the job they were hired for. This is a 
situation that could only be created by this town.
    Mr. Chairman, I would ask that you consider having another 
hearing at a later date in which we can invite CBP officers and 
other State and local officers from the front lines who are 
actually able to offer some real perspectives, highlight the 
real problems and help guide us toward a real solution.
    When we start looking at the border, it is a fascinating 
issue. We have Forest Service, we have primitive areas and we 
have to have a common sense policy in which to have 
apprehensions to make this Country secure. I would like to hear 
from the Border Patrol agents directly.
    Thank you.
    Mr. Bentivolio. Thank you.
    The Chair now recognizes the gentleman from Florida, Mr. 
Mica.
    Mr. Mica. First of all, I want to echo Dr. Gosar's 
comments. I have absolutely had it with the officials who 
refuse to appear before our committee. This is the chief 
investigative panel of the House of Representatives. What's 
this guys name Langlois? You are Acting Chair right now but I 
want a meeting staff with Mr. Chaffetz and Mr. Issa. I want 
these people held responsible.
    We will subpoena Mr. Langlois' butt in here or they will 
appear before us one way or the other. This is the last time 
this is going to happen that I will be involved in any of the 
subcommittees or the full committee and have particularly a DHS 
staffer, this is an important position, not just any staffer, 
not appear before this committee. It is important that he 
appear with these other witnesses.
    I am absolutely frosted and this is the last time I 
guarantee you. They will regret not appearing before our 
committee. I don't care who it is.
    Again, I know you are Acting Chair right now. Staff, I want 
a meeting within the next 24 hours with Chairman Chaffetz and 
also Mr. Issa and if we have to bring the other side of the 
aisle in, whatever it is going to take. Again, I am not very 
pleased that we would have again the Associate Director for 
Refugee, Asylum and International Operations, thumb his nose at 
a legitimate request timely given to appear before this 
subcommittee of Congress.
    I have some questions. Who oversees procurement of some of 
the equipment? Who would have the most knowledge? Do both of 
you have equal knowledge?
    I was not here earlier but you are looking at mobile rather 
than the fixed surveillance system, is that correct?
    Mr. Fisher. That is correct.
    Mr. Mica. Mr. Murphy, correct?
    Mr. Murphy. Yes, sir.
    Mr. Mica. I have information from a whistleblower that 
there are several types of surveillance equipment available. 
One is available at $54 million and the second is available at 
over $100 million. Are you aware of the two principal types of 
mobile surveillance equipment that you are using?
    Mr. Fisher. I am not aware of that.
    Mr. Murphy. No, sir.
    Mr. Mica. I want you to be aware of it. This is information 
I have that you are dividing the contract. I am not interested 
in the 50 percent premium that the taxpayers pay on this mobile 
equipment. I want a report back from one or both of you on what 
is going on, what kind of equipment is being purchased, why you 
are paying twice as much for some equipment that has the same 
capability, I am told, as the other equipment, okay? Do you get 
it?
    Mr. Fisher. Yes, sir.
    Mr. Murphy. Yes, sir.
    Mr. Mica. Back to the committee through myself or the 
Chair, I want a report on why you are paying twice as much for 
some equipment that has the same capability as others. We have 
very limited amount of money, isn't that correct, gentlemen?
    Mr. Fisher. Yes.
    Mr. Murphy. Yes.
    Mr. Mica. We are constrained. This is something that has 
been brought to my attention by a whistleblower. I want it 
verified and documented exactly what you are doing.
    Now let us go to border crossings and protection. There are 
three different types of entry documents, four actually, the 
passport, global entry, you can get in with a global entry 
card, do you have to have a passport too? Murphy, Fisher?
    Mr. Murphy. Yes, sir. Based on the Western Hemisphere 
Travel Initiative, we took about 8,000 different documents out 
there and there's just a few but with the passport.
    Mr. Mica. You get in with a global entry by itself, yes or 
no?
    Mr. Murphy. I will have to get back to you.
    Mr. Mica. What is your position?
    Mr. Murphy. I am the Acting Assistant Commissioner for 
Field Operations.
    Mr. Mica. You can't tell me whether I can get in or out 
with a global entry card?
    Mr. Murphy. In order to get the global entry card, you have 
to have that document and your face will appear on the screen 
when you are coming through.
    Mr. Mica. Can someone entering the United States from 
Canada or Mexico or somewhere come in with just a global entry 
card?
    Mr. Murphy. I will have to get back to you, sir.
    Mr. Mica. Dear God, please don't tell me--you are acting. 
That is pretty scary.
    There are two other documents. One is what, NEXUS and FAST. 
NEXUS is Canadian for Canada. FAST is?
    Mr. Murphy. Cargo, through trucks.
    Mr. Mica. What is the one for Mexico? Is there a card for 
Mexico?
    Mr. Murphy. There is Century, FAST, NEXUS and global entry.
    Mr. Mica. We have all these cards. I had a hearing a couple 
weeks ago on ID cards which again that so and so from DHS isn't 
here so we cannot go after him because they are responsible for 
overseeing some of the standards. We have all these cards. None 
of them have a dual biometric capability, is that right?
    Mr. Murphy. Dual metric in terms of?
    Mr. Mica. Fingerprints and iris would be biometric.
    Mr. Murphy. Yes, it is fingerprint.
    Mr. Mica. But they do not have dual?
    Mr. Murphy. Right.
    Mr. Mica. We had someone testify from the hearing last 
week, get the transcript, from the FBI that fingerprints can be 
altered; they are not secure. The only secure means of 
identification that is guaranteed would be dual biometric. That 
is iris and fingerprint. We do not have anything with iris, 
NEXUS, FAST, global entry, passport, Century, right?
    Mr. Murphy. I believe we are looking at the iris but I 
don't believe we have it.
    Mr. Mica. For 11 or 12 years, I asked that be done in law 
after 2001. I think in 2002, repeated it in law several times. 
Here, again we do not have a DHS person to testify.
    We have a document being used that can be undependable and 
you don't know if global entry can be used to get in. What 
about the others? Can they get in from Canada with the NEXUS 
card?
    Mr. Murphy. I apologize, sir. I know you have to have that 
card.
    Mr. Mica. Dear God, where do they send these people from?
    Mr. Bentivolio. Mr. Mica, we are going to have to wrap it 
up.
    Mr. Mica. Wait a second. Did you have two rounds?
    Mr. Bentivolio. Yes.
    Mr. Mica. That is my first round, so I will go into my 
second round. Did you have a waiting Democrat who wants to go 
first?
    Mr. Bentivolio. Yes.
    Mr. Mica. We will let her go and then I will come back. I 
will try to recover in the meantime.
    Mr. Bentivolio. The gentlelady from New Mexico, Ms. Lujan 
Grisham.
    Ms. Lujan Grisham. Thank you very much, Mr. Chairman, and 
thank you to the panel.
    I am in an interesting position from New Mexico in that we 
have a small, unique border from New Mexico to Mexico but are 
affected primarily by the border at El Paso, but we don't get 
the same border health investments, don't get the same federal 
investments for border protection issues that are beyond the 
border itself but invest in the State.
    We are affected by trade issues which I know have been a 
topic this morning in terms of some of the questions. We are 
affected by the efficacy of what you do on the border. We have 
public safety issues and we also have one of the highest drug 
trafficking and substance abuse problems per capita in the 
Country.
    As a proponent of comprehensive immigration reform, which I 
think helps us with border activity because now we have a legal 
pathway for folks to go back and forth, I am absolutely 
concerned about security issues. I think, given the topics of 
the questions today, is really for Ms. Gambler.
    Of all the investments, we have had significant investments 
and watching what is occurring in the Senate, there is momentum 
for even more investments at the border, tell me which of those 
investments, personnel, equipment, fencing, high tech 
investments, are the most effective? I need to know that both 
in terms of whether it is a cost effective aspect or whether it 
is giving you those protections that we are interested in 
having occur at the border?
    Ms. Gambler. Your question gets at a key takeaway from a 
number of GAO reports we have issued looking at CBP's efforts 
to deploy technology, infrastructure and personnel along the 
border. That takeaway is that the department has been 
challenged to be able to identify the contributions that its 
investments have been making to border security.
    For example, we recommended that the department conduct a 
cost effective assessment to be able to assess the 
contributions that tactical infrastructure and fencing have 
made to border security. With regard to technology and our 
review of DHS' new technology plan for placing surveillance 
technologies along the southwest border, we recommended that 
DHS identify the benefits and metrics for assessing 
implementation of the plan and the technologies going forward.
    Your question gets at a key takeaway from a number of 
reports we have issued on border security efforts.
    Ms. Lujan Grisham. I am hearing from my colleagues on both 
sides that while we know we have to do that, we have to perform 
those evaluations. We don't have that concrete information. In 
your opinion, given unprecedented investments, I am concerned 
about whether they are making the difference we need, should 
our next set of funds, assuming they move forward, be 
contingent upon those assessments and you can only draw down if 
you can demonstrate that in fact it is going to be a cost 
effective investment that also brings about real results at the 
border?
    Ms. Gambler. That would certainly be a policy call for 
Congress but our recommendations have gone to the need for DHS 
to be able to assess the benefits from its investments and the 
contributions those investment are making to its border 
security efforts.
    Ms. Lujan Grisham. If we don't do that, the reality is, and 
I hope, you have immigration reform, continue to make sure we 
do have secure borders, invest in technology that we will be 
using in other places and efforts and if we don't do it in a 
contingent, effective manner, then we will not, regardless of 
the policy decisions we make here, have an effective 
environment for protecting and securing the border while making 
sure that the trade takes place and legal travel back and forth 
across the border is not minimized but is accepted in a 
productive and safe manner.
    Based on the testimony today, I am very concerned that we 
don't have that information readily available to us. That 
minimizes any of the efforts that we make here in Congress. Is 
that a fair statement? Anybody can answer. 23 whole seconds. No 
takers? Come on. Mr. Murphy?
    Mr. Murphy. I think we are working very hard to identify 
our risks. And again, not to beat a dead horse I think our Work 
Group Staffing Model is helping us identify areas that need 
additional resources and basically trying to take more of a 
business transformational type of look at our processes and how 
we do business.
    Ms. Lujan Grisham. It sounds like we may not be as ready as 
we should be.
    Thank you, Mr. Chairman.
    Mr. Bentivolio. The Chair now recognizes the gentlelady 
from Wyoming, Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    To the previous comment by the gentlelady from New Mexico, 
therein lies the problem, trying to get us to do comprehensive 
immigration reform at a time when we cannot assure our 
constituents, the people we work for, that the border is 
secure, is a non-starter. When I go home, all I hear about is 
secure the border first, then we will talk about comprehensive 
immigration reform. I hear that from all aspects, from all of 
my constituents.
    I cannot tell them that we have accomplished step one, 
secure the border, which is their green light to move forward 
on comprehensive immigration reform. This is not a new 
condition that the American people, especially those from non-
border States, have put on us. They have been telling us for 
years secure the border first, then we will talk about 
comprehensive immigration reform.
    There is a bill that probably passed the Senate today that 
will comprehensively reform immigration. It is not going to 
pass the House because we have not addressed the one condition 
the American people have put on us before they will allow us to 
have a robust conversation about comprehensive immigration 
reform. We haven't secured the border.
    My constituents have asked me this repeatedly. Is a fence 
the least expensive, most effective way to secure the border in 
land to land border crossings? Mr. Fisher, is that true?
    Mr. Fisher. In some locations, that would be true, yes.
    Mrs. Lummis. Do we have a fence in every location where 
that is true?
    Mr. Fisher. That I don't know but I should add it is not 
just the fence because anywhere you would have a fence, which 
predominantly you would put in places because you have 
identified it as high risk which is attributed by a lot of 
illegal crossings in between the ports of entry, just having 
the fence in and of itself does not necessarily guarantee 
border security.
    Mrs. Lummis. The Corker Amendment that is being discussed 
in the Senate, I don't know whether it passed or failed, would 
add 700 miles of fence and 20,000 troops on our border to 
defend our border. If you were me and you go home every weekend 
and your constituents are telling you secure the border, secure 
the border, would you vote for the Corker Amendment?
    Mr. Fisher. Representative, I am not in the position to put 
myself in your position although there are similar 
circumstances. When I do go home, my wife and son ask me the 
same question and we have a very interesting discussion about 
that, so I can understand the challenges that you and certainly 
other members of the committee are looking at right now as it 
relates to the current legislation.
    Mrs. Lummis. What are you telling your wife and child?
    Mr. Fisher. I try to change the subject.
    Mrs. Lummis. I will bet you do. Mr. Murphy?
    Mr. Murphy. It is a very important issue.
    Mrs. Lummis. Let me ask, the Corker Amendment, 20,000 
troops, 700 miles of fence on our southern border, would you 
vote for that amendment?
    Mr. Murphy. I don't think I could put myself in your 
position to answer that.
    Mrs. Lummis. Do you have the same conversation with your 
family that Mr. Fisher does?
    Mr. Murphy. Yes, I do.
    Mrs. Lummis. What do you tell them?
    Mr. Murphy. I tell them that we have men and women out 
there doing the best we can with what we have.
    Mrs. Lummis. Mr. Homan, would you vote for the Corker 
Amendment if you were me and your constituents, every weekend 
when you went home, said, secure the border first, then we will 
let you talk about comprehensive immigration reform? Would you 
vote for the Corker Amendment?
    Mr. Homan. I don't think I am in a position to give my 
opinion on that.
    Mrs. Lummis. Do you have a family that you discuss these 
things with?
    Mr. Homan. No. My wife wants me to retire.
    About border security, I think we are doing more with our 
partners in the Border Patrol than we have ever done before. 
There are a couple operations we are currently doing with the 
Border Patrol. For instance, we talk about the Alien Transfer 
Exit Program, ATEP, where if a Mexican national crosses the 
border illegally in Texas, rather than returning them back to 
Texas and they make multiple reentries, we take custody of 
them, detain them, transport them to another State for removal.
    That separates them from the alien smuggling operations so 
you hurt the criminal smuggling organization and cuts down the 
recidivism. Now that alien is out of his area, he doesn't know 
the area, so chances are he is not going to cross again.
    Mrs. Lummis. I am glad to hear we are making progress but 
let me ask you, is our border secure? Is our southern border 
secure?
    Mr. Homan. I do not have resources on the border, we do not 
control the border.
    Mrs. Lummis. Mr. Murphy, is our southern border secure?
    Mr. Murphy. I think we are working toward that end.
    Mrs. Lummis. Is it now? If I go home this weekend, can I 
tell my constituents, and they are going to ask, is our border 
secure? What should I say? What would you say if you were me?
    Mr. Murphy. We are doing our best.
    Mrs. Lummis. Mr. Fisher, what would you say?
    Mr. Fisher. I would say in certain sections along the 
border, that is, in fact true, the border is secure.
    Mrs. Lummis. Can you give us the sections where it is not 
secure? Can you show us a map and show us where it is not 
secure?
    Mr. Fisher. In some locations.
    Mrs. Lummis. Can you advise us, in those locations, those 
some locations where you can tell us, can you tell us how to 
make it secure?
    Mr. Fisher. We are in the process of building that right 
now.
    Mrs. Lummis. When will that process be completed?
    Mr. Fisher. Probably in the next few months.
    Mrs. Lummis. When you get it, are you going to share it 
with us?
    Mr. Fisher. It would be my intention to do so but that 
would not be my call.
    Mrs. Lummis. Thank you, Mr. Chairman. I yield back.
    Mr. Bentivolio. The Chair now recognizes the gentlelady 
from Illinois, Ms. Kelly.
    Ms. Kelly. I just have another question about the data. 
Clearly the Border Patrol also collects data other than 
apprehensions and the Government Accountability Office has also 
reviewed this data. For instance, GAO analyzed the percentage 
of repeat border crossers and found that figure had declined 
also between 2006 and 2011.
    Ms. Gambler, do these indicators paint roughly the same 
picture as apprehensions that the number of illegal border 
crossings may have declined over the last six years and what 
else you think they tell us?
    Ms. Gambler. The recidivism rate data we looked at covered 
the period from fiscal year 2008 to 2011. It found that the 
recidivism rate across the southwest border decreased by six 
percent during that time. The recidivism rate looks at 
estimated known illegal entrants who were apprehended more than 
once, so it is not exactly the same as looking at data on just 
apprehensions. It is looking at the number who have been 
apprehended more than once.
    Ms. Kelly. I also wanted to make a comment that I totally 
understand on both sides of the aisle in this committee that 
when we call someone, we expect the person to be here and 
expect the person to answer our questions. It is also my 
understanding that the gentleman has offered to sit down with 
staff. I just want to make sure we give him a little credit for 
that but I too agree that when we call people, they should come 
to session but from my understanding, he has offered to sit 
down with staff.
    Thank you.
    Mr. Bentivolio. The Chair now recognizes the gentleman from 
Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Let us go back to the identifications used for entry at the 
border. Either Mr. Fisher or Mr. Murphy, are you familiar with 
any of the technical boards that approve the credentials used 
for crossing the border? Mr. Fisher?
    Mr. Fisher. I am not, no.
    Mr. Mica. Mr. Murphy?
    Mr. Murphy. No, sir.
    Mr. Mica. This is why it is difficult to conduct this 
hearing without someone responsible from DHS who can answer 
these questions.
    We have at least five documents I cited and none of them 
have dual biometric capability. Do you know, Mr. Fisher, if 
again those documents can be used by themselves, either global 
entry, NEXUS, FAST or Century?
    Mr. Fisher. I don't know that, sir. That is not my area of 
expertise.
    Mr. Mica. Again, I think as Chief of U.S. Border Customs 
and Protection, you should know which documents can be used. I 
am not able to question, again whether or not there is any 
coordination in the development of those documents and what 
they contain, the capability that they contain.
    How many individuals were apprehended last year, Mr. Homan, 
maybe you have already told the subcommittee, crossing the 
borders illegally?
    Mr. Homan. I don't have the number of illegal aliens 
crossing the border but I can tell you we arrested, processed 
and removed 410,000.
    Mr. Mica. You removed 410,000 back to their original point 
of entry or whatever country they came from?
    Mr. Homan. Yes, sir.
    Mr. Mica. How many were incarcerated in the United States 
last year at any time? Would that be all of them? Is there a 
population of illegals in our prisons?
    Mr. Homan. Yes, of the 410,000 removed last year, 225,000 
of those were convicted criminals.
    Mr. Mica. How many were convicted?
    Mr. Homan. Two hundred twenty-five thousand, 55 percent of 
the 410,000 were convicted criminals.
    Mr. Mica. Did you detain those convicted criminals?
    Mr. Homan. Yes. Our strategic approach has four priorities: 
those that are a threat to national security and community 
safety which are convicted criminals; recent border entrants 
and those that are fugitives.
    Mr. Mica. Taxpayers foot the cost while they are in prison. 
Do we also pay their legal costs? Are they read any rights?
    Mr. Homan. No, we are an administrative process. If they 
get convicted of crimes, they do their time in whatever State 
or federal facility. We get them after the fact and we do try 
to process them for removal while they are still in custody of 
the law enforcement agencies so we don't incur unnecessary 
costs.
    Mr. Mica. Are they entitled to any kind of legal counsel 
that we provide or they can get their own counsel?
    Mr. Homan. They can get their own counsel. Under 
administrative remove procedures, they are not entitled to a 
paid attorney.
    Mr. Mica. They are not. Any idea as to the cost of 
incarcerating these individuals?
    Mr. Homan. In our custody or in the custody of law 
enforcement?
    Mr. Mica. What is your cost and is there an estimate on the 
cost of incarceration?
    Mr. Homan. ERO is funded at 34,000 beds a year and those 
beds turn over quickly. Our funding for detention operations is 
about $1.7 billion.
    Mr. Mica. I saw a number of Customs and Border Patrol 
people were killed historically, maybe in the last decade. Have 
most of the culprits been apprehended, Mr. Murphy or Mr. 
Fisher, do you know?
    Mr. Fisher. Over the last few years, there have been 
arrests of individuals where there was enough evidence to 
warrant their arrest that were attributed to violence against 
Border Patrol agents and in some cases, killing of Border 
Patrol agents and CBP officers.
    Mr. Mica. I remember working with the Reagan Administration 
when they killed Kiki Camarena. I think the way Reagan handled 
it was he closed the borders for a while but we still have 
people who haven't been apprehended who have killed our agents, 
isn't that correct?
    Mr. Fisher. That is correct.
    Mr. Mica. That is kind of a sad commentary. I think we need 
to do everything possible to target those individuals. It might 
be a good use of drones to take them out when you kill an 
enforcement officer or Border Patrol personnel of the United 
States.
    I yield back the balance of my time.
    Mr. Bentivolio. Did you have more questions?
    Mr. Mica. No. I would like the staff to send a letter and I 
have asked for a response on this paying twice as much. I guess 
they divided the contract between a couple vendors. One of the 
pieces of equipment I understand costs twice as much as the 
other. It is nice to divide the contract, but I don't really 
care about that. I am looking at the taxpayer cost. It has the 
same capabilities but I want to find out about that mobile 
surveillance equipment, the acquisition and cost of the 
equipment, difference in any capability and what would justify 
paying twice as much for the same thing.
    We will have the meeting with the Chair of the subcommittee 
and the full committee Chair on calling in the DHS witness.
    Other than that, I appreciate the courtesy.
    Mr. Bentivolio. Thank you.
    I have a few more questions. Mr. Fisher, you testified 
earlier that part of the border is secure and other parts are 
not. What parts of the border are unsecured?
    Mr. Fisher. These would be areas where generally we don't 
have access to the immediate border, we don't have full-time 
deployments of Border Patrol agents and we have very little or 
in many cases, nonexistent technology. It is only in those 
areas where intelligence leads us to believe that criminal 
organizations may be exploiting those areas.
    We adjust our resources accordingly. That is what I meant 
by in some cases, the border is more secure than in others.
    Mr. Bentivolio. What percentage is unsecured?
    Mr. Fisher. I don't have a percentage. It is very difficult 
to identify a percentage.
    Mr. Bentivolio. Miles?
    Mr. Fisher. It is even harder to distinguish miles because 
it fluctuates.
    Mr. Bentivolio. What particular areas, Texas, New Mexico, 
Arizona?
    Mr. Fisher. All across the southwest border are sections 
that are considered secure and other sections that are less 
secure. As a good example, there is a five mile stretch in San 
Diego. My recent post was as Chief in San Diego. That five 
miles is between San Ysidro port of entry and the Otay Mesa 
port of entry. You may have visited it on one of your recent 
border tours.
    That section of the border has been pointed out to me over 
the last couple of years as exactly what we need the whole 
southwest border to look like because within that five mile 
stretch, CBP has over the years put in a single fence, had all 
weather roads, there is a secondary fence between 15 and 18 
feet high and on top of that secondary fence we have razor wire 
triple stranded, by the way, across that. There are hundreds of 
unattended ground sensors in and around that secondary fence 
area. We have integrated fixed towers that provide 7-24 
surveillance and Border Patrol agents routinely deploy that. 
Very few people cross that section of the border.
    If you also look over the last ten years of the 
predominance in tunneling activity along the southwest border, 
that area is the most exploited.
    Mr. Bentivolio. Thank you but I am looking for what part of 
the border is unsecured? You mentioned that part of the border 
is secure and the other part is unsecured. Now you are back 
pedaling saying it is not as secure. It is either secure or not 
secure.
    Mr. Fisher. That is a really interesting point because when 
you look at security, it is not an either/or proposition. It is 
the state of the border at any particular time. Any section of 
the border that we say is secure is potentially continuing to 
be exploited.
    Mr. Bentivolio. You said part of the border is less secure.
    Mr. Fisher. That is correct.
    Mr. Bentivolio. You are saying at certain times, all of the 
border is unsecured and sometimes it is secured? I am confused. 
I would like to help you fix the border and make sure it is 
secure, 100 percent of the time, 24/7, but you are telling me 
part of the border is not secured. What geographical area is 
unsecured?
    Mr. Fisher. There are certain segments. We talked about 
Arizona earlier in the west desert, in and around the Tohono 
O'odham Nation. That is one particular area where I would 
qualify right now because we have less security in that 
particular area than we do in other parts of Arizona.
    Mr. Bentivolio. Do you have a map?
    Mr. Fisher. I can get a map. I don't have one with me.
    Mr. Bentivolio. I would like to see a map. I am an old 
soldier and my perimeter is going to be secure. When I go to 
sleep at night, I want to know I have people out there to 
protect my perimeter.
    Mr. Fisher. Understood, sir.
    Mr. Bentivolio. You know how it works, right?
    Mr. Fisher. I do.
    Mr. Bentivolio. Americans want to go to sleep at night 
knowing their perimeter is secure. I want to know, like a 
soldier, what part is the weakest, what is the strongest and 
what can we do to fix it?
    Mr. Fisher. Certainly. That is understandable.
    Mr. Bentivolio. I have just a few more questions. I was 
reading a blog from Debbie Sushgall, a blogger. What does she 
mean by the term reverse escort? Can any of you answer that 
question? Mr. Homan?
    Mr. Homan. I can answer that question. The activity in Rio 
Grande Valley spiked a couple months ago and since has gone 
down but we have seen an increase in other new Mexican arrests, 
citizens from El Salvador, Guatemala and Honduras, the three 
major populations.
    We have a congressionally mandated cap on overtime. My 
office is going to make so much in overtime and a lot of the 
arrests the Border Patrol is unaccompanied juveniles. These are 
nationals under the age of 18. We are only allowed to detain 
them up to 72 hours before we turn them over to Health and 
Human Services, Office of Refugee Resettlement.
    With the surge in the unaccompanied alien juvenile arrests 
that we have in custody, we are by law and the statute supposed 
to turn them over to HHS. They have facilities all across the 
Country. We contact them, saying we have a juvenile in custody, 
where do we take them. We have to deliver that unaccompanied 
juvenile to them so they can place them in a facility 
comparable for a juvenile.
    My officers were doing so many escorts of these juveniles, 
they were bumping against the overtime cap, so the cost is the 
same for an officer to go from San Antonio to Detroit to drop 
off a juvenile to Health and Human Services and fly back to San 
Antonio, it is a fixed cost. Since we were bouncing against the 
cap, what we are asking the officers to do rather than have 
this guy exceed the cap, we are having the Detroit officer fly 
to San Antonio, pick up the juvenile and take him back to 
Detroit, same cost across the board.
    It is a way to deal with our budget, a way to deal with the 
mandate of the limit of overtime we can pay our officers.
    Mr. Bentivolio. According to the blog, they are saying 
immigration agents are dropping them off in sanctuaries, 
awaiting amnesty.
    Mr. Homan. That is not accurate. My officers turn them over 
to Health and Human Services, Office of Refugee Resettlement. 
They have contracts with certain people that detain the 
juvenile, makes sure he gets his medical and food until he gets 
a hearing from the immigration judge and gets ordered removed.
    You would have to talk to Health and Human Services about 
how they bill out that contract and who they contract with to 
house the juveniles but that is totally taken out of context.
    Mr. Bentivolio. The other question is why would you fly a 
juvenile or anybody from Texas, Arizona or New Mexico to 
Detroit to await trial or some kind of disposition?
    Mr. Homan. Health and Human Services ran out of beds in 
Texas. They have contracts all over the Country. Juvenile 
aliens are arrested all over the 50 States. Because of the 
shortage in the Rio Grande Valley, Health and Human Services 
ran out of contract beds in Texas, so now HHS tells us here is 
where there is availability to take care of this child, here is 
where you bring them. Again, that is Health and Human Services' 
call on where there contracts are for bedding.
    Mr. Bentivolio. Thank you clarifying that.
    This catch and release thing, I toured Eloy, a holding 
facility or prison? What do you call it?
    Mr. Homan. It is a detention facility.
    Mr. Bentivolio. A detention facility, thank you. I 
understand you only have so much bed space.
    Mr. Homan. We are funded for 34,000 beds.
    Mr. Bentivolio. At Eloy?
    Mr. Homan. No.
    Mr. Bentivolio. One thousand five hundred sixty, about 
1,500, right?
    Mr. Homan. Approximately.
    Mr. Bentivolio. If all those beds are filled and you have 
30 that you just caught, where do they go?
    Mr. Homan. At the beginning of the year, we actually had 
over 37,000, actually overburdening the budget because our 
enforcement strategy that makes sense. If we are completely 
full and are beyond budget, as aliens come into custody, we 
need to make a determination. Is there somebody sitting in a 
bed that is a non-criminal, a non-mandatory case, maybe has 
U.S. citizen kids, maybe a child serving in the Armed Forces, 
can we put him in an alternative form of detention, maybe an 
ankle bracelet and monitor him, release him and make that bed 
available for the priority case.
    We save our beds for priority cases which are criminal 
aliens, those who threaten national security and recent border 
crossers. Actually increased the beds in Texas to make sure we 
can detain recent border crossers because I think that is 
important border control strategy.
    Mr. Bentivolio. The Border Patrol agents tell me that they 
get a message saying beds are filled and they don't respond or 
they don't make a big effort capturing all the 26, maybe only 
capture three or four. Is that accurate?
    Mr. Homan. No. What I can tell you is, as a matter of 
practice, we detain all recent border entrants. We have brought 
on a couple thousand more beds in Texas to deal with the 
influx. There are situations where somebody is released from 
our custody, we release people every day, like every jail does, 
maybe we can't get a travel document. Maybe he is from Somalia 
and maybe we cannot get a travel document to Somalia.
    We have a Supreme Court decision in Zabeda that says we can 
only detain someone up to six months. If there is no 
significant likelihood of removal, we must release them as long 
as they are not a danger to the community.
    As Border Patrol gives us the aliens, we make it a priority 
to detain those aliens. If they are unaccompanied juveniles, we 
will turn them over to HHS so they are released from our 
custody. If they claim fear and are interviewed by CIS and CIS 
finds a claim of fear positive, that alien becomes eligible for 
bond.
    We release aliens all the time on bond, if they meet bonds 
set by the judge. If there is a humanitarian concern, maybe an 
alien comes to our attention, we find out is a sole caregiver 
for a child and that person is not a danger to the community, 
he might be better served in an alternative form of detention.
    Mr. Bentivolio. We have heard reports of significant 
increases in other than Mexicans, OTMs, crossing our southwest 
border. In fact, Chairman Chaffetz tweeted about nine Romanians 
apprehended crossing the southwest border during his recent 
trip and some Arizona news outlets are reporting an increase in 
Indian nationals, more than 1,000 since January this year 
crossing in that State. What other countries are they coming 
from?
    Mr. Homan. The big majority right now in order is 
Guatemala, the biggest, Honduras and El Salvador. Let me 
explain what we did with that. We were bringing so many OTMs 
into custody, we have way over 37,000. I instructed my staff to 
meet with the governments of Guatemala, Honduras and El 
Salvador and start a pilot program.
    Usually, these nationals are in detention for 10 to 20 days 
before a government official from Guatemala would interview 
them. They have to interview them and make sure they are 
nationals of their country and issue a travel document. It took 
20 days so the beds were backing up.
    I issued instructions to start a pilot program with 
agreement from the governments. We made equipment available for 
Guatemala and Honduras and they are doing the interviews now 
through a pilot program within 24 hours. They are issuing a 
travel document within 24 hours. I reassigned some flight hours 
to Central America, so we surged Central American flights. In 
the last two weeks we removed over 5,000 OTMs to their country 
through this pilot program, so that got my bed level down.
    As far as the East Indians in Arizona, CBP can speak to 
that but it is my understanding because we are getting them in 
custody that they are actually surrendering themselves at a 
port of entry and claiming fear. At that point, the processes 
will contact CIS, CIS arranges an interview and tries to make 
the determination is that fear credible. If that determination 
is yes, he has a substantiated credible fear of returning to 
his homeland, then that alien becomes eligible for release 
either under bond or other supervisory release.
    Mr. Bentivolio. They are claiming fear, these nine 
Romanians. It was my understanding they went to trial or went 
before a judge, were released on bond of some sort and never 
showed back up.
    Mr. Homan. I am unfamiliar with the Romanians. I know about 
the East Indian issue because it is well over 1,000 we have in 
retention that we are dealing with CIS. I am unfamiliar with 
the Romanian case. Last year, we removed aliens from over 150 
countries, so we see aliens from every country on the planet.
    Mr. Bentivolio. Walk me through this. Somebody comes to 
Eloy, they go before a judge.
    Mr. Homan. On Mexican nationals, we can turn them around 
pretty quickly. On OTMs, before we can remove them to their 
homeland, they have to be interviewed by officials of their 
country to ascertain that they are in fact a citizen of 
Guatemala. After that interview, the Guatemalan government will 
issue a travel document. That identifies the person as a 
national of that country and that allows us to repatriate them 
to that country.
    We arrest somebody and they are an OTM and we set them up 
for an immigration hearing. They will see an immigration judge 
if they request a hearing.
    Mr. Bentivolio. How many show up after you release them?
    Mr. Homan. It depends. If they are released under some sort 
of ordered supervision, maybe an anklet bracelet, ATD shows 
about 80 percent show rate at the hearing. Those released on 
OR, the appearance rate is lower.
    Those arrested crossing the border, the Border Patrol will 
process them as an expedited removal. An expedited removal is a 
removal order in itself, so they don't have to see a judge. 
When the Border Patrol processes them as expedited removal, 
they come to my custody. We get a quick interview from the host 
government, they issue a travel document and remove them.
    The only time a hearing comes into effect is if they are 
claiming fear and they get to go through NCIS and later an 
immigration judge. If they are not an expedited removal case, 
if we arrest them in the interior, we cannot process them 
expedited removal, we have to give them a notice to appear in 
front of an immigration judge.
    Mr. Bentivolio. What percentage of OTMs, do you have an 
average number in detention facilities?
    Mr. Homan. At the time we started the pilot, we had 
approximately 34,000 in custody and approximately 7,000 to 
8,000 OTMs.
    Mr. Bentivolio. The rest are?
    Mr. Homan. Citizens of Mexico.
    Mr. Bentivolio. Eighty percent show up.
    Mr. Homan. The ADT metric, when we release someone on ADT 
or ankle bracelet, the appearance rate on that and other forms 
of reporting, telephonic reporting, could be an officer doing a 
bed check at their residence, we have an 80 percent appearance 
rate for those released to alternative detention.
    Mr. Bentivolio. So, at least 20 percent did not appear?
    Mr. Homan. Yes, sir.
    Mr. Bentivolio. How many people is that approximately, 
10,000? You are talking 400,000 people you processed.
    Mr. Homan. Actually we had intake of 475,000 last year, we 
removed 410,000. Some are still fighting their cases. We have 
some cases that go to immigration court, they will get a final 
order of removal and they will appeal that to the Board of 
Immigration Appeals. They can go further and appeal once more 
to the circuit court. We have a lot of aliens with final orders 
sitting in our beds that we cannot remove because they have 
appeals pending.
    Mr. Bentivolio. You have 400,000 plus; 20 percent of that 
is 80,000 people that never show back up.
    Mr. Homan. Our current fugitive operation backlog, people 
ordered removed and have fled, they have not been removed, is 
462,000, latest count.
    Mr. Bentivolio. Four hundred sixty-two thousand, and the 
news reports or media reports 11 million illegal in this 
Country. Somebody told me it is closer to 20 million; somebody 
else told me 30 million.
    Mr. Homan. I have heard the 11 million figure. That is why 
I think what ICE is doing is smart and effective enforcement. 
Knowing that we can are remove 400,000 aliens, that is what we 
are staffed and budgeted for, I think a smart way to do that is 
it going to be the first 400,000 we encounter, the first 
400,000 in the door?
    I think our policy focusing on the criminal aliens, those 
that threaten national security, I like to think we can decide 
who those 400,000 are going to be. The more criminals there 
are, the safer our communities are. We make a bigger impact, so 
our policy is clear. Let us decide who that 400,000 is going to 
be if that is all we can do. Let us make as many of them 
community safety factors as possible. That makes our 
communities safer.
    I mentioned earlier we removed 225,000 criminal aliens last 
year. That is a significant impact on community safety, not to 
mention the recidivism rate of around 50 percent. How many 
crimes did we prevent by removing that many criminal aliens?
    Mr. Bentivolio. Two hundred twenty-five thousand, is half 
of the 400,000.
    Mr. Homan. That is 55 percent. If you look at the 410,000, 
96 percent fell into our priorities, either 55 percent were 
criminal aliens and the rest, 96 percent, were either 
fugitives, those who were ordered removed and reentered which 
makes them reentry or the recent border entrants. The recent 
border entrants remain a priority for us because we need to 
secure the border.
    Mr. Bentivolio. A second illegal entry is a felony?
    Mr. Homan. If they have been ordered removed formally by an 
immigration judge, they reenter and we catch them, they can be 
prosecuted for 8 U.S.C. 1326 which is a felony, reentry after 
deportation.
    Mr. Bentivolio. Do you agree with other law enforcement 
professionals who are concerned that the rise in OTMs 
correlates to the rise in smuggling operations coming out of 
Mexico?
    Mr. Homan. I think the rise in OTM apprehensions, a vast 
majority are being smuggled by smuggling organizations 
operating out of Mexico.
    Mr. Bentivolio. I have one last question. When I was at 
Eloy, they gave me a daily report. It was a sheet of paper with 
all the countries in the world and there was a little space 
next to it. Every day, somebody would fill out that report and 
write the number being held at that facility in that little 
space on the sheet of paper. Is that like a daily report?
    Mr. Homan. I am unfamiliar with that. That might be 
something that facility does but we track every alien in 
custody, where they are from, who they are, how long they have 
been in custody through electronic databases.
    Mr. Bentivolio. I saw all the countries that were 
represented in that facility. Knowing from what I have seen 
that we don't capture 100 percent, we don't, the one thing that 
bothered me the most was there was the number one next to the 
country of Afghanistan. I don't know why but that really played 
on me.
    If we don't capture everybody, how many that we didn't 
capture from that particular country, because that is of 
concern to me and I am sure a lot of others, I guess that is 
why I stay awake at night sometimes when I think about this 
border and the problems we have there.
    Operational control is often described as a strategy used 
by DHS and CBP to describe their operations in securing U.S. 
borders. What do you view as the biggest threat to the security 
of our borders, Mr. Fisher, and we will go right down the line?
    Mr. Fisher. Certainly the biggest threat as I would 
describe it would be those individuals that seek and wake up 
each and every day thinking about nothing else but doing harm 
to this Country. That is our number one threat and that is what 
our strategy looks to target.
    Mr. Bentivolio. What does that mean?
    Mr. Fisher. Your question had to do with how we evaluate 
threat along the border and what that threat is?
    Mr. Bentivolio. What do you think the biggest risk is and 
how are we responding to that risk? To give you an example, 
there was one person there from Afghanistan. Right now we are 
fighting a war in Afghanistan. Why is somebody from Afghanistan 
sneaking into our Country or trying to? They are being held in 
Eloy Prison at the time.
    Then I hear we have 11 million illegals and we are not 100 
percent secure. You said the border is not secure. Somebody who 
wants to do us harm is going to exploit our weaknesses and the 
weak points in our border. My job, as the Congressman, is to 
protect this Country, number one priority in the Constitution.
    You are telling me our border is not secure and I would 
like to know what you think the biggest threat to the security 
of our borders is? Can you give me a percentage?
    Mr. Fisher. I do share the same responsibility as you as 
the Chief of United States Border Patrol. I along with the 
other agents took the same oath to support and defend the 
Constitution against all enemies foreign and domestic. Within 
that framework, and the strategy which we have implemented over 
the last couple of years, specifically the threat that keeps me 
up as well is those individuals, potential terrorists, seeking 
entry to this Country and they do so between the ports of 
entry.
    We build a strategy and try to identify what the 
requirements are to minimize the likelihood that those 
individuals if they are inclined to get into this Country in 
that manner, we are able to detect them and apprehend them when 
they do so.
    If you are looking at threats or vulnerabilities as 
established geographically, I cannot give you certain segments 
of miles and I cannot give you percentages. I can give another 
example outside of the West Desert in Arizona, in a place like 
south Texas where the border is separated by the Rio Grande 
Valley and areas where we generally do not have a lot of 
detection capability, we do not have impediments like we have 
in other places like 12 to 15 foot fences.
    The areas right now where we see the vast majority of 
individuals seeking entry are within those areas in the Rio 
Grande Valley. From a regional standpoint, vulnerability is in 
the Rio Grande Valley.
    Mr. Bentivolio. Mr. Murphy?
    Mr. Murphy. I believe it is terrorists and implements of 
terror. One of the things we have done is we have pushed our 
borders back from air traffic, the passengers. We know who is 
coming, we know well in advance of them boarding planes, and we 
know what is coming from a cargo and get that information in 
advance. At our land ports of entry and at our seaports, we 
have our RPMs or radiation detection devices. I believe that is 
where we have really done the most work as far as identifying 
that threat ahead of time.
    We denied boarding to 4,200 people in 2012. These were 
potentially high risk individuals that could have come to this 
Country to do harm.
    Mr. Bentivolio. We want 100 percent border security and you 
do not have it and one from Afghanistan comes in. That is all 
it takes is one.
    Mr. Homan?
    Mr. Homan. I have carried a badge for 29 years. I care 
about the security of this Country and I think it is my job to 
protect the security of this Country and the security of our 
communities. I think the biggest threat is those who want to 
come to this Country and do harm in two different fashions.
    The other side of the house, HSI Division, is a priority 
project they are working on, investigations of a national 
security nature. Also important is the safety of the 
communities for those who come here and want to commit crime 
who not only enter the Country illegally but then commit a 
crime against a citizen of this Country.
    I have been doing this for a long time. There was a time 
when I was a street agent and we would just go out and arrest 
aliens because they are here in violation of the law. I am 
enforcing immigration law. At the end of the day, what impact 
did I make? At the same time I am arresting this person who is 
here illegally but maybe hasn't committed another crime, there 
is a child predator walking out of State prison because we 
didn't have a presence in all the jails across the Country.
    This Administration, I truly believe this, has done a lot 
for community safety by deploying secure communities across the 
Country. We have a virtual presence in every jail. When an 
alien is arrested and finger printed, we are going to find out 
about that alien and we can take action and remove him from the 
Country.
    The strategy ICE has built on prioritizing what we do on 
national security threats, aliens that are a threat to public 
safety, makes sense to me. It is the right thing to do. If we 
are built to remove 400,000 people, let us make that 400,000 
count. I think what we are doing now makes sense. I have been 
doing this 29 years. I think we are in a better spot now than 
we have been in years.
    Mr. Bentivolio. Thank you very much.
    Ms. Gambler?
    Ms. Gambler. The Border Patrol has identified threats to 
border security from terrorism, from drug smuggling and from 
illegal migration. The Border Patrol is working on developing 
some risk assessment tools to help assess what those risks are 
and help inform its identification of resources. That is in 
process right now.
    Mr. Bentivolio. Thank you very much.
    I would like to thank all our witnesses for taking time 
from their busy schedules to appear before us today. The 
committee stands adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
